<html>
<title> - COVER BLOWN: DID TSA TIP OFF AIRPORT SCREENERS ABOUT COVERT TESTING?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  COVER BLOWN: DID TSA TIP OFF AIRPORT SCREENERS ABOUT COVERT TESTING?

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2007

                               __________

                           Serial No. 110-86

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________
                  U.S. GOVERNMENT PRINTING OFFICE
48-981                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress from 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................    33
The Honorable Gus M. Bilirakis, a Representative in Congress from 
  the State of Forida............................................    29
The Honorable Yvette D. Clarke, a Representative in Congress from 
  the State of New York..........................................    48
The Honorable Peter A. DeFazio, a Representative in Congress from 
  the State of Oregon............................................    31
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania......................................    36
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    27
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    40
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    37
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas........................................    34
The Honorable Nita M. Lowey, a Representative in Congress from 
  the State of New York..........................................    41
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California...................................     3
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    43
The Honorable Ed Perlmutter, a Representative in Congress from 
  the State of Colorado..........................................    29

                               Witnesses

The Honorable Clark Kent Erving, Director, Homeland Security 
  Program, The Aspen Institute:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
The Honorable Edmond S. ``Kip'' Hawley, Assistant Secretary, 
  Transportation Security Administration, Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. Gregory Kutz, Managing Director, Office of Forensic Audits 
  and Special Investigations, Government Accountability Office:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10


  COVER BLOWN: DID TSA TIP OFF AIRPORT SCREENERS ABOUT COVERT TESTING?

                              ----------                              


                      Wednesday, November 14, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. In 
Room 311, Cannon House Office Building, Hon. Bennie G. Thompson 
(chairman of the committee) Presiding.
    Present: Representatives Thompson, Dicks, DeFazio, Lowey, 
Jackson Lee, Christensen, Etheridge, Cuellar, Clarke, Green, 
Perlmutter, Pascrell, King, Lungren, Dent, and Bilirakis.
    Chairman Thompson. The committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on TSA Tip Off is of Airport Screeners.
    I want to thank our witnesses for joining us today. We are 
here to look into allegations that TSA tipped off airport 
screeners about covert testing. The Air Transport Association 
estimates that 27 million people will fly worldwide over the 
next 12 days. Since September 11th, the government has asked a 
lot of the public in the name of security.
    Even as I speak, air travelers across the Nation are 
waiting in long security lines, taking off their shoes, hats 
and coats, putting their miniature toothpaste and shampoo in a 
plastic bag, even throwing perfectly good water bottles into 
the trash. The public has accepted these inconveniences because 
our government says it will lead to safer skies. So when we 
have TSA management tipping off airport security officials 
about covert testing, we have a credibility and accountability 
problem.
    When I assumed the chairmanship of this committee, I 
pledged to hold the Department of Homeland Security accountable 
for developing a roadmap to genuine security, one that provides 
Americans freedom from fear. Our government cannot play on the 
fears of an attack and then try to cheat its way through its 
midterm exams.
    The public has accepted increased scrutiny at our airports. 
In turn, the public also demands the same scrutiny of the 
Department and, in this case, of TSA. This is why we are 
holding this hearing today, to ask TSA to explain why on April 
28, 2006 it used a systemwide communication system, NETHUB, to 
give more than 650 aviation security officials a heads-up about 
a possible security test.
    This e-mail was provided to the committee by a member of 
the media and verified by my staff, that email said that 
several airport authorities and airport police departments have 
recently received informal notice of security testing at 
airports around the Nation. The e-mail detailed several methods 
that were being used to attempt to breach airport security and 
even gave a brief description of some of the testers. The e-
mail concluded, ``We are getting the word out.'' But the word 
was not supposed to get out. Covert testing of airport security 
is supposed to be just that, covert.
    It is hard to overstate the importance of this type of 
testing. It is a critical part of a layered defense that 
protects our Nation's commercial aviation system. Covert 
testers are out there trying to expose gaps before a terrorist 
does, and if someone at TSA undermines this testing, they are 
undermining aviation security as a whole.
    This committee is tasked by Congress to conduct oversight 
of the Department of Homeland Security, its organization, and 
particularly transportation security programs. Today's hearing 
is just the first step in my committee's investigation into 
this issue.
    To date, TSA has been very cooperative with my staff and I 
trust that this cooperation will continue. I hope that at the 
end of the road we can say that this was an isolated incident. 
But we will follow this investigation wherever it takes us. The 
flying public deserves no less.
    [The prepared statement of Mr. Thompson follows:]

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    The Air Transport Association estimates that 27 million people will 
fly worldwide over the next twelve days. Since September 11th, the 
government has asked a lot of the public in the name of security.
    Even as I speak, air travelers across the nation are waiting in 
long security lines; taking off their shoes, hats and coats; putting 
their miniature toothpaste and shampoo in plastic bags; even throwing 
perfectly good water bottles into the trash. The public has accepted 
these inconveniences because our government says it will lead to safer 
skies.
    So when we have TSA management tipping off airport security 
officials about covert testing, we have a credibility and 
accountability problem. When I assumed the Chairmanship of this 
Committee. I pledged to hold the Department of Homeland Security 
accountable for developing a roadmap to genuine security--one that 
provides Americans freedom from fear. Our government cannot play on our 
fears of an attack and then try to ``cheat'' its ways through its mid-
term exams.
    The public has accepted increased scrutiny at our airports. In 
turn, the public also demands the same scrutiny of the Department--and 
in this case of TSA.
    That is why we are holding this hearing today--to ask TSA to 
explain why, on April 28, 2006, it used a system-wide communication 
system, NETHUB, to give more than 650 aviation security officials a 
head's up about a ``POSSIBLE SECURITY TEST.''
    The email, which was provided to this Committee by a member of the 
media and verified by my staff, said that ``several airport authorities 
and airport police departments have recently received informal notice'' 
of security testing ``at airports around the nation.'' The email 
detailed several methods that were being used to attempt to breach 
airport security, and even gave a brief description of some of the 
testers. The email concluded: ``We are getting the word out.'' But the 
``word'' was not supposed to ``get out.'' covert testing of airport 
security is supposed to be just that--covert.
    It is hard to overstate the importance of this type of testing; it 
is a crucial part of the layered defense that protects our nation's 
commercial aviation system.
    Covert testers are out there tying to expose gaps before a 
terrorist does, and if someone at TSA undermines this testing, they are 
undermining aviation security as a whole. This Committee is tasked by 
Congress to conduct oversight of the Department of Homeland Security, 
its organization, and particularly transportation security programs. 
Today's hearing is just the first step in my Committee's investigation 
into this issue.
    To day, TSA has been cooperative with my staff, and I trust that 
this cooperation will continue. I hope that at the end of the road we 
can say that this was an isolated incident, but we will follow this 
investigation wherever it takes us.
    The flying public deserves no less.

    Chairman Thompson. I yield 5 minutes to the Ranking Member 
for this committee hearing, the gentleman from California, Mr. 
Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    As you stated, covert testing of TSA screeners is an 
extremely important issue. It is a valuable tool, we all 
believe, to measure TSA's screening performance and identify 
screening vulnerabilities. As the years pass since 9/11 we will 
become more and more dependent on covert testing operations to 
challenge our TSA screening system and to improve screener 
training procedures and technology.
    Covert testing is an effective tool when properly employed 
without prior notice. It is used extensively by TSA's Office of 
Inspection. As I understand it, all airports are subject to no-
notice testing by the Office of Inspection, and that they have 
tested over 830 airports and conducted over 22,000 covert 
tests. The DHS IG also conducts hundreds of covert tests at 
airports independently of TSA.
    In April, TSA established the aviation screening assessment 
program to expand covert testing internally in order to gather 
data to support operational decisions. In just 6 months the 
program has performed thousands of covert tests at hundreds of 
airports, testing all aspects of the screening process, 
including the detection of prohibited liquids and IEDs. I think 
all of us on the committee applaud that and the direction that 
TSA has taken.
    These programs and the thousands of covert tests they 
employ seem to demonstrate that TSA believes in the value and 
effectiveness of this procedure to improve the U.S. Aviation 
screening process and ultimately our Nation's security. I think 
we all share this belief.
    Therefore as the Ranking Member of the Subcommittee on 
Transportation Security Infrastructure Protection, with 
jurisdiction over TSA, I am extremely concerned by the 
implications of this morning's hearings. And so, Mr. Chairman, 
I look forward to the testimony of our witnesses to learn how 
and why TSA, if it has, has blown its cover on this covert 
testing program.
    I was concerned when I saw the specific e-mail that the 
Chairman has addressed, and I am eager to hear what the 
response is. I might just say that in all my dealings with Mr. 
Hawley, I found him to be forthright with this committee and I 
have applauded the efforts he has made toward increasing the 
use of screening as a measuring tool and as an educational tool 
to improve the performance of our screeners, be they Federal 
employees or contract employees.
    I also in the dealings I have had with Mr. Restovich, whose 
name is on this e-mail, found him to be an individual of 
integrity and I hold him in high regard. That is why I was 
mystified by this e-mail, at least the language contained in 
it. Hopefully we can find out exactly what occurred and what 
processes have been put in place to make sure it doesn't happen 
again, and also what actions were taken immediately upon 
anybody of supervisory responsibility learning of this e-mail.
    And just in ending, Mr. Chairman, I would like to say that 
we ought to be doing covert testing. We ought to urge and 
support the administration at TSA in their covert testing. It 
can do nothing but improve the performance of those who we had 
given this responsibility. And I hope what we will find is that 
the testing is tough testing, and increasingly tough testing, 
and is agile enough to respond to new threats as we see them, 
rather than static performance that would otherwise not be 
beneficial.
    And so Mr. Chairman, I thank you for having the hearings 
and look forward to the testimony that we will receive.
    Chairman Thompson. Thank you very much Mr. Lungren. I agree 
with you, we have to have covert testing. I think it is the no-
notice issue that we have before us today.
    [The information referred to follows:]

---Original Message---
From: NETHUB
Sent: Friday, April, 28,2006 2:51 PM
To: TSA FSD; TSA DFSD; TSA AFSDS; TSA AFSD-R; TSA AFSD-LE
Cc: TSNM COMMERCIAL AIRLINES; TSNM COMMERCIAL AIRPORTS; Schear, James; 
Morris, Earl R; McGowan, Morris; Restovich, Mike; Tashiro, Susan; 
NETHUB
Subject: NOTICE OF POSSIBLE SECURITY TEST

Date: April 28, 2006

To: Federal Security Directors

From: Mike Restovich, Assistant Administrator, Office of Security 
Operations

Primary POC: NetHub

Secondary POC: None

Action Due Date: None

Subject: NOTICE OF POSSIBLE SECURITY TEST

This information is provided for your situational awareness. Several 
airport authorities and airport police departments have recently 
received informal notice of possible DOT/FAA security testing at 
airports around the nation. Here is the text of one such notification:
        Several airports have reported that the DOT is testing airports 
        throughout the country. Two individuals have been identified as 
        FAA or DOT at the airport in JAX this morning. They have a 
        stack of fake ID's, they try to penetrate security, place IED's 
        on aircraft and test gate staff.
These individuals were in CHS earlier this week and using a date 
altered boarding pass managed to get through the security checkpoint. 
Alert your security line vendors to be aware of subtle alterations to 
date info. they should also pay very close attention to the photo id's 
being presented. They will print a boarding pass from a flight, change 
the date, get through security (if not noticed) and try to board a 
flight and place a bag in the overhead.
There is a couple, and the woman has an ID with an oriental woman's 
picture, even though she is Caucasian. We are getting the word out.

Office of Security Operations, NetHub

    Chairman Thompson. Other members of the committee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    I would like to welcome our distinguished panel of 
witnesses. Our first witness is Assistant Secretary Kip Hawley, 
who serves as the Administrator, Transportation Security 
Administration at the Department of Homeland Security. 
Assistant Secretary Hawley has over 20 years of experience in 
the private and public sectors working on various 
transportation and technology-related initiatives and has 
served since 2005.
    Our second witness is Mr. Greg Kutz, managing director of 
the Government Accountability's Forensic Audits and Special 
Investigations Unit. As a senior executive at GAO Mr. Kutz has 
been responsible for numerous reports and testimonies relating 
to credit card fraud; Hurricanes Katrina and Rita; fraud, waste 
and abuse; transit benefit fraud; and security issues such as 
airport security and smuggling of nuclear materials across our 
Nation's border.
    Our third witness is Mr. Clark Ervin, Director of Homeland 
Security issues at The Aspen Institute. Prior to taking his 
current position, Mr. Ervin served as the first inspector 
general of the Department of Homeland Security. During his 
distinguished career, Mr. Ervin has served in numerous 
capacities, including a stint as the Associate Director of 
Policy in the White House Office of National Service, under 
President George H.W. Bush.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    Chairman Thompson. I now ask each of the witnesses to 
summarize his statement for 5 minutes beginning with Assistant 
Secretary Hawley.

STATEMENT OF THE HONORABLE EDMOND S. ``KIP'' HAWLEY, ASSISTANT 
 SECRETARY, TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Hawley. Thank you, Mr. Chairman, Mr. Lungren, members 
of the committee. I appreciate the opening statements that you 
both made. And Mr. Chairman, the only thing I would change in 
yours is where it said ``when'' TSA does tipping off to ``if.'' 
And I think if TSA were to be doing tipping off of covert 
testing, that would indeed be a serious matter.
    I would like to make very clear that the matter is under 
investigation now, but there is nothing that I have learned in 
the past week and a half or since I was first made aware of 
this e-mail that would indicate there was any intent on 
anybody's part associated with that e-mail to do covert testing 
or tip-off. So there is no tip-off and no cheating.
    This is very important to us because covert testing is part 
of our fiber as an Agency. As you both mentioned, it is how we 
stay ahead of terrorists with efforts to do IEDs at the 
checkpoint. And we do over 70,000 electronic tests a day on our 
work force. And we do 2,500 actual bomb component covert 
testing at checkpoints. That means every checkpoint, every 
shift, every day, every one of the 450-some airports that we 
have. They have actual bomb components, they put them through 
the checkpoint. That is a massive amount of testing. This is 
the most tested work force that I know of in the United States 
and it uses the best technology, and I have to say that they 
are the best in the world at what they do. So any allegation 
about integrity associated with that process would indeed be 
extremely serious.
    I would just like to make mention of Mr. Restovich. The 9/
11 Commission has very much of value in their report. And one 
of the things that I want to highlight is to talk about 
information sharing, particularly with people at the edge of a 
network such as our Federal Security Directors around the 
system. When Mike took over as head of security operations in 
January or February 2006, one of his initiatives was to create 
something called NETHUB that would be able to quickly send out 
information to the edge of our network, the Federal Security 
Directors. That is the organization that sent out the e-mail.
    The individual who sent out the e-mail in question had no 
knowledge of covert testing that the IG was at that point 
performing at TSA. The individual who sent that e-mail had no 
knowledge of covert testing. Mike Restovich, when he found out 
about it--he was not the author of the e-mail--when he found 
out about it, immediately had it recalled. The elapsed time 
from when it was sent to when it was recalled was 13 minutes. 
There was no intent to tip off. There was no cheating. And when 
the facts are completely in and the investigation is over, I 
think we are going to find out that there is not a cheating 
problem or a tip-off problem.
    This is so important to us, because integrity is the center 
of everything we do with the American public. And just the 
allegations themselves got worldwide coverage as if there were 
cheating at TSA. That was read by our partners abroad, it was 
read by our enemies abroad, and it was read by our employees. 
And that is damage that is lasting, because when this whole 
issue is over, I think there are many interesting issues that 
are worth pursuing, but it is not a question of cheating. And a 
rush to judgment on that I think does a disservice not only to 
our people, to the members of the TSA work force, but also to 
our flying public.
    So I look forward to discussing, as I have in the past and 
will continue to do openly, take the criticism. But I think you 
know as members of this committee, that when we do have issues, 
we get on them and we fix them. And if there are issues related 
to this that come up during the course of that investigation, 
we will get on them and we will fix them. But I want to make 
very clear right now, there is not an integrity issue that is 
risen from anything I know from this e-mail at this point. 
Thank you, sir.
    Chairman Thompson. Thank you very much.
    [The prepared statement of Mr. Hawley follows:]

Prepared Statement of the Honorable Edmond S. ``Kip'' Hawley, Assistant 
   Secretary, Transportation Security Administration, Department of 
                           Homeland Security

    Good morning Chairman Thompson, Ranking Member King, and 
distinguished members of the Committee. Thank you for this opportunity 
to discuss the covert testing of security screening checkpoints at 
airports.

Overview of Covert Testing
    Since it assumed responsibility for aviation security screening at 
airports, the Transportation Security Administration (TSA) has always 
recognized the value and importance of covert testing to measure TSA's 
screening performance and identify areas that require improvement. 
Covert testing is a tool to identify vulnerabilities in the system and 
uncover weaknesses of training, procedures or technology. The primary 
purpose of covert testing is not to test an individual officer or 
airport, but to act as a measure of system-wide effectiveness and drive 
improvement through training, procedures, and technology.
    Covert testing of TSA's screening operations is performed by 
several organizations within the Department of Homeland Security (DHS): 
TSA's Office of Inspection (OI), the Office of Inspector General 
Office, and TSA's Office of Security Operations (OSO).
    OI conducts extensive covert tests around the nation with no notice 
to local or headquarters officials. These expert testers are trained in 
the latest methods of smuggling bombs, bomb parts and weapons through 
checkpoints using techniques acquired by national and international 
intelligence partners and gathered through years of experience. The OI 
covert testing staff includes former Transportation Security Officers 
(TSO) who have on-the-ground experience in screening passengers. 
Airports are selected based on a number of factors, including 
intelligence reports, threats to aviation, and the airport environment. 
All airports are subject to no-notice testing by OI. To date, OI has 
tested at over 830 airports and conducted in excess of 22,000 covert 
tests. In 2008, OI will conduct over one thousand covert tests, 
continually restructured to reflect the current terrorist threat, at 
over 100 airports to assess our security vulnerabilities. For safety 
purposes airport law enforcement are notified prior to testing. Once 
testing starts, TSA management is made aware of the situation in 
accordance with established policies and protocols, which do not permit 
advanced notice to TSOs and who are thus subjected to no-notice 
testing. After testing is completed, agents discuss the results with 
TSOs and local TSA officials and provide additional training to TSOs to 
raise vulnerability awareness and improve security operations.
    In addition to OI testing, DHS IG also conducts hundreds of covert 
tests at airports from coast to coast and acts completely independently 
from TSA. DHS IG agents measure the effectiveness of screening 
protocols and communicate these results to TSA and the Department in 
order to increase effectiveness of screening and security. TSA uses 
these independent results to validate and improve training.
    Beginning in April of this year, TSA established the Aviation 
Screening Assessment Program (ASAP) within OSO to greatly expand our 
internal covert testing and provide statistically sound data to support 
operational decisions. This program arose out of a recognition that, 
notwithstanding the valuable information learned from the extensive 
covert testing conducted by OI and others, TSA nevertheless needed a 
more systematic framework to more accurately assess the effectiveness 
of our screening process and to identify which aspects of the process 
require improvement. This program has performed thousands of covert 
tests at hundreds of airports nationwide in just six months. We are 
testing virtually every aspect of the screening process, including the 
detection of prohibited liquids and improvised explosive devices 
(IEDs).
    Under separate training programs, TSA additionally conducts over a 
thousand covert exercises focused on detecting IEDs and almost 70,000 
electronic image tests--every day. The information collected from these 
programs enables TSA to make informed decisions based on reliable data 
to better target our efforts to improve the screening process. ASAP 
will enhance our ability to identify which aspects of the screening 
process needs improvement: operations, procedures, technology, 
training, or management. And, we now have a formal process to conduct a 
thorough assessment of the screening process every six months and 
implement the appropriate courses of action to address any concerns 
revealed during the expansive covert testing.
    Because of this array of testing efforts, our TSOs are among the 
most tested workforce in the country. TSOs are literally tested every 
day, on every shift, at every checkpoint in every lane across over 400 
airports around the United States.

Maintaining the Integrity of Covert Testing
    I would also like to address concerns raised by recent media 
reports on the integrity of the covert testing of screening operations. 
The value of covert testing relies upon the testers' ability to perform 
unannounced tests. We take great care to protect the covert nature of 
the testing to ensure the data is an accurate measure of the screening 
system's performance. We treat covert testing results very seriously 
because these results help us identify vulnerabilities in the system 
and implement corrective measures to prevent another terrorist attack. 
We routinely provide very limited notice to local law enforcement in 
certain circumstances involving real threat items for safety reasons so 
as to avoid endangering airline passengers, flight crews, and our own 
workforce which, unbeknownst to any of them, are in the immediate area 
of a covert test. TSOs should not be given advanced notice of covert 
testing. Indeed, advanced notice to TSOs from a TSA employee is a 
violation of established policies and protocols, and defeats the 
purpose of covert testing.
    Mr. Chairman, I understand that you are aware of a specific matter 
involving a TSA-internal ``NETHUB'' communication on April 28, 2006, 
currently under investigation by the DHS IG. We are fully cooperating 
with the investigation and will appropriately address any findings of 
the investigation. NETHUB is a division within TSA's Office of Security 
Operations created in the spring of 2006 that serves a central 
communications conduit between TSA Headquarters and our field 
operations at over 400 airports. NETHUB sends and receives 
communications by email, telephone and fax on operational and 
administrative matters, such as distributing new screening procedures 
and security directives, announcing opportunities for employees to 
serve on national advisory councils, and various data requests from 
field operations.

Conclusion
    In addition to Innovation and Team Spirit, Integrity is one of the 
three core values of TSA. We require our personnel to conduct 
themselves in an honest, trustworthy and ethical manner at all times. 
Maintaining the integrity of covert tests of our screening operations 
is essential for TSA to gain the type of information necessary to 
continually improve and adapt our screening processes to stay ahead of 
terrorists. Any individual action to compromise the integrity of covert 
testing is extremely short-sighted and contrary to TSA's mission of 
providing an effective security system to protect aviation.
    Chairman Thompson, thank you again for the opportunity to testify 
today. I am happy to respond to the Committee's questions.

    Chairman Thompson. We now recognize Mr. Kutz for 5 minutes.

    STATEMENT OF GREGORY KUTZ, MANAGING DIRECTOR, OFFICE OF 
    FORENSIC AUDITS AND SPECIAL INVESTIGATIONS, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Kutz. Mr. Chairman and members of the committee, thank 
you for the opportunity to discuss covert testing. All covert 
testing at GAO is done by my unit, which is called Forensic 
Audits and Special Investigation, or FSI. My testimony today 
has two parts: first, how we do covert testing; and second, 
specific examples of our work.
    First we follow both investigative standards and more 
detailed FSI procedures for our operations. Our covert testing 
is typically done at the request of congressional committees 
and subcommittees. As &1 Legislative branch agency working for 
the Congress, we are independent of th. Executive branch 
agencies that we test.
    FSI conducts covert tests as a red team operation, meaning 
that we do not notify agencies in advance of our testing. In 
contrast, blue team operations involve notifying agency 
officials in advance. All FSI investigations have a written 
plan. Well-trained, experienced people are critical to the 
success of a covert test. The average FSI investigator that 
does our covert testing has over 20 years of law enforcement 
experience. Plans must be approved by the FSI Assistant 
Director for Investigations, me, and two other executive 
committee members at GAO before testing begins.
    We require investigators acting in a covert capacity to 
have a cover team to ensure safety. If a covert operation is 
uncovered during the testing, the cover team is to identify 
themselves and alert law enforcement officers or others that we 
are conducting a test. We use only publicly available 
information to develop our covert tests. This approach provides 
the most realistic test of what a terrorist or criminal might 
actually do. For example, when making counterfeit documents, we 
use only publicly available hardware, software, and materials.
    Once the operation is complete, we first brief our 
congressional requesters, we then brief Agency officials and 
provide suggestions to address any specific weaknesses that we 
identify. Finally, we issue a report and often times will 
testify before our congressional requesters.
    Moving on to my second point, we have conducted a wide 
variety of covert testing for many different congressional 
committees and subcommittees across the Congress. Examples of 
various testing include controls over radioactive materials, 
border security, airport security, sales of sensitive military 
technology and fraud prevention controls over Federal programs.
    The following three examples provide more details. First, 
using a bogus business and fictitious individuals, we obtained 
a genuine radioactive materials license from the Nuclear 
Regulatory Commission. We altered this license and used it to 
obtain commitments to ship to our bogus business dangerous 
amounts of radioactive materials that could be used to make a 
dirty bomb.
    Second, posing as defense contractors, we were able to 
penetrate two DOD excess property warehouses. There we obtained 
$1.1 million of surplus military property that was sensitive 
military technology. Our cover story was so convincing that the 
DOD employees, including contractors, helped us to identify 
targeted items and load them into our rented van.
    And third, posing as victims of Hurricane Katrina and Rita, 
our investigators applied for Federal assistance using false 
identities, bogus addresses, and fabricated disaster stories. 
FEMA sent our bogus victims a number of checks based upon these 
bogus applications. In case you are wondering, we gave the 
checks back to FEMA after our test.
    In conclusion, our covert testing provides the Congress 
with irrefutable evidence about Federal agencies under live 
conditions. The results of our covert testing have also been 
used by Federal agencies across the government to strengthen 
homeland and national security and to minimize fraud, waste, 
and abuse of taxpayer dollars.
    Mr. Chairman, this ends my statement, I look forward to 
your questions.
    Chairman Thompson. And I am sure you will have some 
questions from that.
    [The prepared statement of Mr. Kutz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
     Mr. Chairman and Members of the Committee, this concludes 
my statement. I would be pleased to answer any questions that 
you or other Members of the Committee may have at this time.
    Chairman Ervin. Mr. Ervin for 5 minutes.

  STATEMENT OF CLARK KENT ERVIN, DIRECTOR, HOMELAND SECURITY 
                  PROGRAM, THE ASPEN INSTITUTE

    Mr. Ervin. Thank you very much, Mr. Chairman and members. 
For this invitation to testify at this very important hearing 
today. I have a longer statement that I have submitted for the 
record. I will summarize that statement for you now.
    The April 2006 e-mail from TSA to Federal Security 
Directors and other security personnel around the country 
alerting screeners to covert testing, as troubling as it is on 
its face, appears to be part of a pattern at both Federalized 
airports and privately run ones.
    About 2 years ago, as you will recall, a former employee 
for the San Francisco contractor, Covenant, alleged that 
undercover tests were compromised in this fashion there. Those 
claims were substantiated by DHS Office of Inspector General 
investigation last fall. At a Federalized airport, the one in 
Jackson, Mississippi, DHS OIG has substantiated allegations 
that TSA employees and even TSA management compromised 
undercover tests by alerting screeners beforehand there.
    During my time as inspector general at the Department of 
Homeland Security during the covert test that we conducted at 
both Federalized and privatized airports all around the country 
in 2002 and 2004, on occasion our testers got the impression 
that their tests were compromised. We were never able to 
substantiate that, but against this pattern it appears in fact 
to have been the case. I should mention that I have been told 
by those who have seen the results of the testing that is the 
subject of today's hearing that the results were dismal. If 
screeners still failed tests they knew were being conducted, 
heaven help us when al-Qa'ida next probes for weaknesses in 
aviation security.
    It is urgent that Congress and the independent DHS Office 
of Inspector General investigate this matter thoroughly. If the 
facts are as they appear to be on their face--and it would seem 
to me to be a very heavy burden to prove otherwise--then the 
person who sent this e-mail, any person or people who 
authorized it and those who knew about it in advance, did 
nothing to stop it from being sent, and anyone who received it 
and acted on it should all be summarily fired and then 
criminally prosecuted for potentially endangering the security 
of the United States.
    I understand that poor test results are embarrassing to TSA 
and its senior managers. And I understand that human nature 
being what it is, people don't like to be embarrassed. But the 
security of the Nation must come before protecting reputations. 
If these tests are compromised and people are led to believe 
that screeners are better at detecting concealed weapons than 
they are, terrorists can exploit this gaping hole in our 
security to kill thousands more people someday.
    There should be no mystery as to what it takes to improve 
screener performance significantly. The recommendations that my 
former office made 4 years ago remain as valid today as they 
were then. Screeners need to be trained regularly and 
stringently under conditions that approximate real-world ones 
as closely as possible. Screeners whose performance is 
consistently subpar must ultimately be fired. Supervisors must 
be evaluated on the basis of their success or failure in 
training their teams. Supervisors whose teams consistently 
perform in a subpar fashion must ultimately be fired. And 
technologies like Backscatter that can see through clothing and 
spot concealed guns and knives, and multiview X-ray technology 
that automatically rotates bags in a three-dimensional fashion, 
ultimately revealing concealed weapons, must finally be moved 
beyond the testing and pilot phase to widespread deployment.
    It may be impossible to spot concealed weapons 100 percent 
of the time, but through better training, closer supervision 
and more widely deployed sophisticated technology, we can come 
as close to 100 percent detection as humanly possible. All 
these many years after 9/11 we still have failed to grasp that 
airport screeners are our very last line of defense before 
another group of hijackers attempt to board planes and carry 
out another devastating attack on our homeland.
    TSA is compromised if screener testing endangers the 
security of the Nation. As I said, everyone responsible for 
this particular compromise and any others that may have 
occurred over the years should be subjected to the maximum 
penalty allowed by law. Thank you very much.
    Chairman Thompson. Thank you very much for your testimony.
    [The prepared statement of Mr. Ervin follows:]

                 Prepared Statement of Clark Kent Ervin

    Thank you Mr. Chairman, Mr. King, and members for inviting me to 
testify today at this important hearing. Given my background as the 
Department of Homeland Security's first Inspector General and my 
present work as the Director of the Homeland Security Program at the 
Aspen Institute, I am often asked whether in my judgment America is 
safer today than we were on 9/11. The answer to that question is yes, 
especially in the area of aviation. Given the enormity of that tragedy 
and our tendency ``to fight the last war'' rather than to anticipate 
the next one, the bulk of our attention and resources have been focused 
on that sector. The good news is that we have something to show for 
it--cockpit doors are hardened; some pilots are armed; and the number 
of air marshals is significantly higher.
    The bad news is that in several significant respects we remain far 
more vulnerable to another catastrophic terror attack from the air than 
we should be all these many years after 9/11, the creation of TSA, and 
the creation of the Department of Homeland Security. None of these 
respects is more critical than that of airport screener performance in 
terms of their ability to spot concealed guns, knives, and explosives.
    The sad fact is that for all the dollars and attention that has 
been focused on screener performance since 9/11 study after study--by 
the DHS Inspector General, the Government Accountability Office; news 
organizations, and, even, the TSA itself--shows that it is just as easy 
today to sneak these deadly weapons past screeners than it was on 9/11.
    The first major briefing I had as Inspector General of DHS when I 
arrived in 2003 was with my counterpart at the Department of 
Transportation, Ken Mead, in whose jurisdiction aviation security lay 
prior to the creation of DHS. At the request of the President himself 
immediately after the 9/11 attacks, Mead sent teams of undercover 
auditors to airports around the country--large and small--to test the 
ability of the then privatized screener workforce to spot concealed 
weapons. Those results are still classified nearly seven years later, 
but suffice it to say that it was far easier than it should have been 
to sneak these weapons through in the immediate aftermath of 9/11 when 
screeners' alert level should have been at its highest. The first major 
project I then asked my own audit team to undertake in 2003 was to go 
to the very same airports as Mead's teams had done two years earlier to 
see whether the federalization of the screener workforce; the creation 
of TSA; and the transfer of TSA from the DOT to DHS had made any 
difference in screeners' ability to spot deadly weapons. When the 
results came in in late 2003/early 2004, they were exactly the same, to 
the decimal point, as those Mead's teams obtained in 2001. Before 
departing DHS in 2004, I sent my teams out again to the same airports 
to see whether the recommendations we had made in terms of training, 
supervision, and technology (about which more later) had made any 
difference. The results came in in the spring of 2005, and they, too, 
were exactly the same as those obtained four years earlier. The pattern 
has continued all across the country to the present day. There is the 
GAO report last spring to the effect that investigators were able to 
sneak potential bomb components through checkpoints at 21 different 
airports. There was a news report last fall that screeners at Newark 
International Airport, not incidentally one of the airports transited 
by the 9/11 hijackers, failed 20 out of 22 undercover tests. And, then, 
of course, there was the USA story a couple of weeks ago reporting that 
screeners failed TSA's own undercover tests 75% of the time at LAX, and 
60% of the time at Chicago O'Hare.
    Interestingly that same study found only a 20% failure rate at San 
Francisco airport. San Francisco happens to be one of the handful of 
airports around the country where screeners continue to be private 
contract employees. One might think that such a dramatically better 
result at a privately run airport suggests that such airports are 
better at training screeners than federalized ones. I caution against 
that conclusion, at least not a priori. Our work during my time at DHS 
showed no appreciable difference in screener performance between 
federalized airports and privatized ones.
    Another possible explanation for the discrepancy relates to the 
subject of today's hearing--the possibility that TSA may have tipped 
off screeners to the presence of undercover investigators. About two 
years ago, a former employee for the San Francisco contractor, 
Covenant, alleged that undercover tests were compromised in this 
fashion. Those claims were substantiated by a DHS Office of Inspector 
General investigation last fall.
    At a federalized airport, the one in Jackson, Mississippi, DHS OIG 
has substantiated allegations that TSA employees, and even TSA 
management, compromised undercover tests by alerting screeners 
beforehand.
    So, the April 28, 2006, email from TSA to Federal Security 
Directors and other security personnel around the country alerting 
screeners to covert testing may well be part of a pattern at both 
federalized airports and privately-run ones. (I should mention that I 
have been told by those who have seen the results of this testing that 
the results were dismal. If screeners still fail tests that they know 
are being conducted, Heaven help us when al-Qa'ida next probes for 
weaknesses.)
    It is urgent that Congress and the independent DHS Office of 
Inspector General investigate this matter thoroughly. The person who 
sent this email, any people who authorized it and those who knew about 
it in advance and did nothing to stop it from being sent; and anyone 
who received it and acted on it should all be summarily fired and 
criminally prosecuted for potentially endangering the security of the 
United States. I understand that poor test results are embarrassing to 
TSA and its senior managers, and I understand that people don't like to 
be embarrassed. But, the security of the nation must come before 
protecting one's reputation. If these tests are compromised, and people 
are led to believe that screeners are better than they are at detecting 
concealed weapons, terrorists can exploit this gaping hole in our 
security to kill thousands more people someday.
    There should be no mystery as to what it takes to improve screener 
performance significantly. The recommendations that my former office 
made four years ago remain as valid today as they were then. Screeners 
need to be trained regularly and stringently, under conditions that 
approximate real world ones as closely as possible. Screeners whose 
performance is consistently sub-par must ultimately be fired. 
Supervisors must be evaluated on the basis of their success or failure 
in training their teams. Supervisors whose teams consistently perform 
in a sub-par fashion must ultimately be fired. And, technologies like 
``backscatter'' that can see through clothing and spot concealed guns 
and knives, and ``multi-view x-ray'' technology that automatically 
rotates bags in a three- dimensional fashion, ultimately revealing 
concealed weapons, must be moved beyond the testing and pilot phase to 
wide deployment. It may be impossible to spot concealed weapons 100% of 
the time, but through better training, closer supervision, and more 
widely deployed sophisticated technology, we can come as close to 100% 
detection rate as is humanly and technically possible.
    All these many years after 9/11, we have still failed to grasp that 
airport screeners are our very last line of defense before another 
group of hijackers attempt to board planes and carry out another 
devastating terror attack on our homeland. TSA's compromise of screener 
testing endangers the security of the nation, and everyone responsible 
for this particular compromise, and any others that may have occurred 
over the years, should be subjected to the maximum penalty the law 
allows.

    Chairman Thompson. I thank all the witnesses for their 
testimony. I will remind each member that he or she will have 5 
minutes to question the panel. I now recognize myself for 
questions.
    Assistant Secretary Hawley, as I mentioned in my opening 
statement today, TSA has been very cooperative with the staff 
investigating this issue. I would like to get your word that 
going forward, TSA will continue to be cooperative in providing 
documents as well as making the necessary individuals available 
to committee staff to talk to.
    Mr. Hawley. We absolutely will be cooperative. I think that 
is a blanket statement forever, and we have worked with the 
committee on a variety of sensitive issues and will continue to 
do so to get whatever issues there are ventilated and show the 
truth.
    Chairman Thompson. Thank you, and I appreciate that.
    The other issue I want to kind of talk briefly about is you 
indicated that this e-mail was recalled. Will you provide the 
committee with a copy of the e-mail recalling the earlier e-
mail?
    Mr. Hawley. When the inspector general finishes the 
investigation, they will issue a full report with whatever they 
find in it. So I would prefer to let the inspector general work 
until that effort is complete and then, as you say, let the 
chips fall where they may. So I don't have any issue with 
withholding anything that is relevant to this.
    Chairman Thompson. Well, you just said you will provide us 
with any documents.
    Mr. Hawley. Yeah.
    Chairman Thompson. I mean, if you have this e-mail you 
referenced in your opening statement, it is just a matter of 
providing it to the committee.
    Mr. Hawley. It will go through the IG. The IG has its 
investigation and they will issue the report. I am just 
reporting to you--
    Chairman Thompson. So you are qualifying your earlier 
statement.
    Mr. Hawley. No, not at all, not at all. I haven't myself 
touched the document, so I don't want to say I will produce X 
document. But what I just described to you was what I know to 
be the case, and then that the inspector general independently 
is assessing that in the report.
    Chairman Thompson. So do I assume from the recalling of 
this e-mail that somebody in TSA knew that this e-mail had been 
sent?
    Mr. Hawley. Well, Mike Restovich knew when it was sent when 
he received it, and said ``What's this?'' and then went back to 
the office and said, ``Pull it back.'' And that was 13 minutes 
from when it was sent by another individual.
    Chairman Thompson. Just for the record, Mr. Assistant 
Secretary, when did you see this e-mail?
    Mr. Hawley. I saw it the other--a week or so ago when the 
press release went out.
    Chairman Thompson. So you had no prior knowledge of it?
    Mr. Hawley. I had no prior knowledge of it.
    Chairman Thompson. Do you think that the NETHUB system that 
sent out this notification that the covert testing was taking 
place was an appropriate use of the NETHUB system?
    Mr. Hawley. Well, the e-mail, in my judgment and with 
hindsight and plenty of time, clearly should not have gone out. 
The individual who sent it out, sent it out believing that it 
was time-sensitive. And it came the day after the shooting in 
the Cleveland airport where we have stood up our incident 
management system to immediately alert all FSDs. If somethingis 
happening in one airport, they need to be alert everywhere to 
be on their toes. There was some suspicious elements from this 
e-mail, specifically the DOT FAA testing, because as you know, 
DOT and FAA do not do unannounced covert testing with TSA. So 
it was a good-faith, perhaps, mistake in judgment to send it 
out. But as soon as it happened it was recalled by senior 
leadership.
    Chairman Thompson. Has anyone been disciplined because of 
this e-mail?
    Mr. Hawley. No, sir. Well, I think we are going to wait for 
the investigation to be complete until we find out what the 
story is.
    Chairman Thompson. Who sent it out?
    Mr. Hawley. An individual--I am not comfortable saying the 
name. I will be happy to provide it to the committee after the 
process.
    Chairman Thompson. If you had seen this e-mail yourself, 
Mr. Hawley, what would you have said?
    Mr. Hawley. Well, I--with hindsight I would say--well, 
actually the issue gets to operational communications. And 
operational communications need to be go out of TSOC; so NETHUB 
is not meant to be instant operational, it is meant for instant 
informational. Operational stuff goes through TSOC.
    So I would have said if this is true, get it out to TSOC. 
If we have probes, we need to know about it and find out.
    Chairman Thompson. Mr. Kutz, do you think it is advisable 
to notify any operation that covert testing will be going on?
    Mr. Kutz. Our practice is not to do so, so we believe the 
most realistic test is not to notify in advance. And I think 
that the question would be, is if you did notify in advance, 
would the results be different? And our belief is that they 
would be. It doesn't mean that a blue team test, as I described 
in my opening statement, doesn't have value. Our information 
technology people test government computer systems security 
using a blue team approach. And we do it so that we don't bring 
down a system and cause millions of dollars of damage. So in 
that particular case, we don't. But the way we do covert 
testing with cover teams, we believe it is safe and we believe 
that not notifying is the best way to do it.
    Chairman Thompson. Thank you.
    I must say, Mr. Hawley, I am a little troubled that for a 
long time we were told that basically no notifications of any 
covert testing had ever gone out. And then we hear today that a 
recall of an earlier notification had gone out. So that is a 
little troubling, I know, to me as Chair of the committee.
    I now yield to the gentleman from California for his 
questions.
    Mr. Lungren. Thank you very much. Mr. Hawley, I am trying 
to understand this. Even though the e-mail said it came from 
Mike Restovich, is what you are telling us it did not come from 
him?
    Mr. Hawley. That is correct. It came from the Office of 
NETHUB. He was the head of the office, and they issued 
bulletins sometimes without him actually authoring them.
    Mr. Lungren. So it is your information and your testimony 
at this time is that he did not author this nor know about it 
when it went out; is that right?
    Mr. Hawley. That is correct.
    Mr. Lungren. So that then he was made aware of it by 
reading it; is that correct?
    Mr. Hawley. Correct, after it had gone out.
    Mr. Lungren. And when he looked at it, in his mind as you 
understand it, he thought it was a mistake and so then he 
recalled it; is that what you are saying?
    Mr. Hawley. Yes, sir.
    Mr. Lungren. And what I'm also trying to figure out is the 
FAA/DOT reference here. Is what you are saying the person who 
sent it out, who is not identified at this time, had some 
suspicions about somebody testing the system because it said 
FAA and DOT and they are not authorized to do this? I am just 
trying to see if this is what the story is. And, therefore, he 
thought it was suspicious. And because you had had an 
experience just the day before, he sent this out in this form, 
which now we look at and it looks suspicious to us from the 
standpoint of being a covert operation being revealed to the 
people who are supposed to be tested; is that right?
    Mr. Hawley. That is right.
    Mr. Lungren. That is what you are telling us.
    Mr. Hawley. Correct.
    Mr. Lungren. OK, I will await the findings of the inspector 
general on that.
    Now, Mr. Ervin said that this is exceedingly important 
because the screeners are our last defense against people 
trying to penetrate. If that is true, there are other layers, 
is that correct, when we are talking about an operation here?
    Mr. Hawley. That is correct. And the checkpoint is not the 
last line of defense.
    Mr. Lungren. Do you test those other layers?
    Mr. Hawley. Yes, sir.
    Mr. Lungren. Are they covertly tested as well?
    Mr. Hawley. Well, they are both covert as well open 
testing.
    Mr. Lungren. Now, Mr. Ervin said that his office 
recommended several years ago that screeners be trained 
regularly and stringently under conditions that approximate 
real-world ones as closely as possible, and then said this is 
not being done now.
    Mr. Hawley. That would be incorrect.
    Mr. Lungren. Well, how do you tell.
    Mr. Hawley. Because they do 2,500 actual covert tests using 
bomb parts every single day.
    Mr. Lungren. But he said real-world ones, as closely as 
possible.
    Mr. Hawley. So that is a mistake in statement.
    Mr. Lungren. No, what I mean is how do you mean that what 
you are doing is real-world?
    Mr. Hawley. It uses actual bomb component parts from our 
covert--from our very professionally developed covert testing 
kit. It uses detonators, it uses simulated explosives. It is 
the real deal.
    Mr. Lungren. Mr. Kutz said that what they do when they do 
their covert operations is they base it on information that is 
publicly available, if I understand it.
    Mr. Kutz. That is how we do ours; that is correct.
    Mr. Lungren. Now, do you do that or do you use information 
you receive as a result of intelligence? And if you do the 
latter, why? And why would you do that instead of what Mr. Kutz 
has said?
    Mr. Hawley. We absolutely use the Intel Community's 
information to craft our security measures and our tests and we 
go after the ones when we find out something they may be 
training to, and then we go test it to see how vulnerable are 
we to this, and then we adjust the security measures.
    Mr. Lungren. Now, Mr. Ervin also said in his testimony that 
screeners and supervisors whose performance is constantly 
subpar must be fired, and indicated that, I guess, he doesn't 
believe that is happening.
    What, if any, program do you have that evaluates the 
performance of both screeners and supervisors, and if they are 
``consistently subpar?'' and I would love to have you define 
that, and Mr. Ervin define what that meant. Have they been 
fired, are they fired, do we have the processes by which you 
are allowed to do that, and if you do, have you done it?
    Mr. Hawley. Yes, yes, to all of the above. The thing that 
we have added, we have always had the stick, if you fail your 
certification at the end of the year, you are fired. And that 
unfortunately has happened a great deal.
    We now have a remedial education part of that that allows 
people to retrain and pass. Our objective is not to get rid of 
people but to improve our screening. And now we have added 
bonuses to high performance, so we have a more positive 
motivation.
    Mr. Lungren. When you do these covert tests, are they for 
the purpose of evaluating performance of an individual employee 
and therefore that becomes part of his or her employment jacket 
and you can make judgments with respect to employment status on 
it, or is it a means of training, or is it a little bit of 
both?
    Mr. Hawley. It is training, and we do it with teams. We 
like to have a team effort both in terms of the TSO in front, 
the X-ray, and the person doing the pat-down or the bag search. 
So we say it is a team activity and we do it to train.
    Mr. Lungren. So if I fail and I am a screener and you have 
come by 10 times in the last month at my station and I failed 
every time, that is not taken into consideration whether I am 
doing my job?
    Mr. Hawley. If the person fails on the job with our job 
testing, what we try to do is train and improve on what they 
are doing. Sometimes we are throwing them things that the 
technology can't detect, and we have some things where it would 
be unfair to have a punitive aspect to the training. So what we 
do is we keep the training positive and the testing in a 
separate category.
    Mr. Lungren. My time is up, Mr. Chairman, thank you.
    Chairman Thompson. Thank you very much.
    Mr. Ervin, you were referenced a couple of times, so we 
will give you an opportunity to respond.
    Mr. Ervin. Thank you very much for that, Mr. Chairman. 
There are just three quick points I would make. With regard to 
this issue of whether screeners are the last line of defense, 
what I said in the statement was that screeners were the last 
line of defense before another group of hijackers boards 
airplanes. Certainly cockpit doors, for example, have been 
hardened since 9/11, some pilots are armed, and both of those 
things could help to prevent another homeland security attack 
in exactly the same manner as 9/11. But I was talking about the 
last line of defense before hijackers board airplanes. There is 
no further screening of people boarding airplanes after they 
have passed the checkpoint.
    Mr. Hawley. That is not correct.
    Mr. Ervin. I was talking about real-world conditions. There 
are a couple of elements to real-world conditions. One of those 
elements is the weapons at issue be as sophisticated and as 
like real-world guns and knives and bombs as possible. The 
other element of real-world testing is that the test not be 
compromised and screeners not be alerted beforehand.
    And third, by consistently subpar, we can't in an 
unclassified session talk about particular results at airports, 
but as I am sure you know, Mr. Lungren, the results have been 
consistently very poor indeed at airports throughout the 
country, both Federalized airports and privatized airports 
since 2003.
    Chairman Thompson. Thank you very much.
    We yield to the gentleman from Washington for 5 minutes, 
Mr. Dicks.
    Mr. Dicks. Mr. Hawley, it sounded to us like you were 
making a judgment.
    Chairman Thompson. Your microphone.
    Mr. Dicks. Usually I am easily heard, as my colleagues 
noted.
    Mr. Hawley, it sounded as if you were saying that you 
didn't think there was a problem here. I mean, your statement 
clearly states that there was a problem, that this should not 
have happened. Now, would you testify now and tell us that this 
should not have happened?
    Mr. Hawley. I was referring to an integrity problem, a 
cheating problem and not a supervisory control problem. I think 
there will be some very interesting things that come out of the 
test. I don't mean to say that is not going to be valuable, but 
the pieces on the integrity I have to say publicly, because it 
has been out all over the media, there is stuff in the paper 
today that is just plain wrong, and it is unfair to the 
individuals involved and most importantly it is unfair to the 
TSOs--
    Mr. Dicks. You can't be seriously saying that what this 
individual did wasn't a breach of integrity or lack of--or made 
a mistake, he made a mistake?
    Mr. Hawley. Well, making a mistake is different from lack 
of integrity.
    Mr. Dicks. The person who recalled this thing in 13 minutes 
thought there had been a mistake made.
    Mr. Hawley. A mistake. I acknowledge we make mistakes 
frequently, unfortunately. But integrity, we do not have 
integrity lapses.
    Mr. Dicks. You don't think this was an integrity lapse?
    Mr. Hawley. No, sir, absolutely not.
    Mr. Dicks. Mr. Ervin, as inspector general would you think 
this is an integrity lapse?
    Mr. Ervin. Absolutely.
    Mr. Hawley. He doesn't know the facts.
    Mr. Ervin. Absolutely, Mr. Dicks. I do not understand this 
apparent claim on Mr. Hawley's part that the rationale for this 
was that this was improper testing because DOT and the FAA are 
not authorized to test. It is true, but there is nothing in the 
e-mail to suggest that. If you read the e-mail on its face, the 
apparent implication here, it is pretty clear, is that this was 
intended to alert the screeners so as to improve their 
performance on the test. It is just obvious. I do not 
understand the contrary impression of this.
    Mr. Dicks. Mr. Kutz, you are an experienced person. Do you 
think this is a prima facie case of someone making or doing 
something that was wrong?
    Mr. Kutz. I don't know. I would say that it could impact 
the integrity of the test. The integrity of the people is a 
different matter. If someone is notified in advance of a covert 
test, it clearly affects the integrity of the test, and that 
would be all I could probably respond to.
    Mr. Dicks. Well, it just seems to me that this is a pretty 
open-and-shut case, that somebody made a mistake. You should 
not have sent out this e-mail.
    Now, Mr. Hawley if you are going to defend this individual, 
I want to hear your defense of this individual when your 
statement says exactly the opposite.
    Mr. Hawley. No. My statement is there is an inspector 
general investigation going on, let us let it run its course 
and find out what happened. I acknowledge when I read the e-
mail, I looked at it and said ``what in the heck is this,'' 
which apparently was very similar to the reaction that Mike 
Restovich had when he saw it back in April 2006.
    Mr. Dicks. Right.
    Mr. Hawley. And then he had it canceled. So here is a 
difference between do errors occur at TSA? The answer is yes, 
they do. If the question is, do we cheat on covert tests and is 
there some kind of integrity issue where management is cheating 
on tests, the answer: The facts do not bear that out.
    Mr. Dicks. Let me ask, do you have any knowledge of any 
other example of coaching or whatever you want to call it, of 
letting people know that there might be a test? Have you got 
any other example that you know of?
    Mr. Hawley. Yes, I have heard allegations and I have read 
IG reports from before I came to TSA, but as far as what is 
going on today, the covert testing is so much a part of the 
professionalization of our work force and focusing on IEDs, 
there is to reason--if we are doing 2 million a year, there is 
just--it's not something that we would go try to mess with. We 
need this information to stop attacks.
    Mr. Dicks. Mr. Ervin, do you think there are other examples 
of this that you are aware of?
    Mr. Ervin. Absolutely, Mr. Dicks. There is an Office of 
Inspector General report from August 2007, just months ago, 
that is talking about an investigation at TSA, an investigation 
at Jackson Evers International Airport, and it says that TSA 
employees at Jackson Evers International Airport provided 
advanced notice to other TSAs at this airport. This allegation 
was confirmed.
    Now, Mr. Hawley says that this happened before he arrived. 
This is August 2007, this report. There is also a report that 
says confirming--
    Mr. Perlmutter. What was the date?
    Mr. Ervin. This report is August 2007.
    Mr. Perlmutter. The date of the incident?
    Mr. Ervin. The testing was conducted in 2004.
    I think the main issue here is whether there are other 
instances of compromise of these tests. And there are. There is 
another instance in San Francisco as well.
    Mr. Dicks. Mr. Hawley, I would hope that your position 
would be that this is unacceptable. I don't think you could 
hedge on this. The integrity of these tests should not be 
thwarted by advance knowledge, and you should make it very 
clear. And I think by trying to defend this, you are 
undermining the program itself, and I would hope you would 
reconsider your position.
    Mr. Hawley. Thank you. I agree with your statement covert 
testing, if tipped off, undermines the integrity of the whole 
system and is despicable. And so it is absolutely wrong, 
knowledgeably tipping off covert testing is wrong.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I now recognize the gentleman from Florida for 5 minutes, 
Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mr. Hawley, can you provide me and my constituents any 
assurances about the sanctity of the covert testing that 
screeners at some of the Nation's busiest airports such as 
Tampa, Miami, and Orlando are receiving on a daily basis as you 
testified?
    Mr. Hawley. Yes. We have many levels of covert testing that 
are done in addition to GAO, the inspector general. We have our 
own Office of Inspection. And they are out there, they have 
done something over a thousand tests here in the last year. We 
have a rigorous program of covert testing plus the ones that I 
mentioned earlier that we do every day at the checkpoint, and 
it is very professionally done.
    We have some different protocols than does GAO, but we have 
our own protocols that are well understood and they actually 
drive our security measures. Security measures we have in place 
today are driven by the results of our testing. So it is a no-
kidding issue that we are doing. We get intelligence from the 
Intelligence Community, we go test it, and we do change our 
security procedures based on this covert testing.
    Mr. Bilirakis. In your written testimony you said that TSOs 
are among the most tested work force in the country, and you 
just said that again. Testing is one thing, but results are 
certainly another. Would you please share with us your 
assessment of screener performance systemwide?
    Mr. Hawley. Increasingly better, because we keep raising 
the bar. We used to test previously with what we call the Wiley 
Coyote bomb, which is a big thing that you can't miss, that you 
can't possibly miss. We have now gone to bomb components. We 
switch from just testing as previously assembled bombs; now we 
do the tiniest bomb components that we put in, and we continue 
to raise the bar. So as the grades go up, we keep trying to 
increase the difficulty, because it is an evolving threat and 
they are going to keep coming at us with different things. So 
we have to keep the test up with whatever might be changing.
    This is an actual test object. And yes, you can get 80 
percent, you can get 90 percent, you darn sure should get 100 
percent. But this is not real security testing, it is testing 
for the purpose, for a good grade perhaps. We use tiny 
improvised explosive device components that we have, every kind 
of imaginable configuration that are extremely difficult to 
test, but, unfortunately, that is the enemy that we face.
    Mr. Bilirakis. At a recent hearing, the head of the 
Screener Union testified the media reports about the inability 
of screeners to detect simulated explosives and bomb components 
during covert tests are not good indicators of overall screener 
performance and did not satisfy him that there is a systemwide 
security problem. Do you agree; is there a systemwide security 
problem?
    Mr. Hawley. I think our security is the best in the world. 
And I think having said that, there are vulnerabilities, we 
acknowledge that. The question is how do you manage risk 
against them? How do you go after the attacks that would cause 
severe damage to an aircraft in the aviation environment? How 
do you figure out how to stop those first and work your way 
back? So it is the best in the world, but, yes, there are 
vulnerabilities and we have to keep moving to stay ahead.
    Mr. Bilirakis. Mr. Ervin, can you address that as well?
    Mr. Ervin. Well, all I can say to that, sir, is that 
consistently, report after report, year after year, continues 
to show that screener performance is dismal, is the only word I 
can think of. We found that consistently in the tests that we 
conducted, as I said, at large airports, small airports, 
Federalized airports, privatized airports, those results were 
obtained in 2005 as well by other independent investigations.
    Last fall at Newark International Airport, 20 out of 22 
tests were failed. And of course, there was the USA Today story 
just a couple weeks ago showing a 75 percent failure rate at 
Los Angeles airport and a 60 percent failure at Chicago 
airport. I might mention that there was a 20 percent only 
failure rate at San Francisco. We don't know why that result 
was so significantly better than the results at those other two 
airports. It could, however, be that the reason for that was 
that that test was compromised at San Francisco airport, 
because as I said we now know through a DHS Office of Inspector 
General investigation that an investigation 2 years ago at the 
San Francisco airport was in fact compromised.
    Mr. Bilirakis. Mr. Secretary, I want to bring up an 
important matter to your attention. You may be aware on Monday 
a teenager in Tampa near my district, Jody Hall, had an 
apparently unprotected pipeline that resulted in the release of 
toxic ammonia cloud, the evacuation of almost 4,000 people, and 
the closure of several schools.
    Madam Chair, I would like to brief you on this as well. I 
want to let you know that I will be contacting TSA about the 
security of these pipelines, especially in the Tampa Bay area, 
and the role TSA is playing in their inspection and security. I 
hope that you will direct the appropriate officials under your 
direction to take this matter very seriously and respond to the 
inquiry expeditiously. So if you can get back to me on that, I 
would appreciate it.
    Mr. Hawley. Yes.
    Mr. Bilirakis. If you have a comment on that, I would 
appreciate that as well.
    Mr. Hawley. Yes.
    Mr. Bilirakis. Thank you very much. Thank you very much, 
Mr. Chairman.
    Chairman Thompson. Now yield to the gentleman from Oregon 
for 5 minutes.
    Mr. DeFazio. Mr. Chairman, I am a little concerned that we 
seem to be saying that the screeners aren't infinitely better 
than on 9/11. Mr. Ervin seems to be trying to say that. The 
fact is on 9/11 we had the lowest paid employees in the 
airport. It was an entry-level job from which people hoped to 
move up to McDonald's. It had 200 to 300 percent turnover rate 
in some airports. They didn't have background checks, some were 
illegal aliens, some were criminals. And the failure rates were 
dismal. But the tests, as Mr. Hawley pointed out, were not very 
sophisticated.
    When I came here in 1987 I introduced my first bill on 
enhancing security, because at that point the test was a fully 
assembled 45 enclosed in a block of lucite, with no more than 
three articles of clothing in the carry-on bag, and the failure 
rate was comparable to what it is today. But today's test would 
be finding something very, very small, as Mr. Hawley said.
    Now where I would agree--and this is where I want to go 
with the question--is your points about the enhanced 
technology. I think the people are infinitely better. The tests 
are much more sophisticated. The threats are incredibly more 
sophisticated, and they are still working with the same crappy 
old equipment, 1970's technology. So I think your point here 
about the multiview X-ray, the Backscatter, which I have been 
harping on for years and, because of some privacy issues, even 
though we could, say, ask people to voluntarily go through it 
and then frisk the others, we haven't deployed these things 
fully.
    Mr. Hawley, where are we on new equipment?
    Mr. Hawley. On the checkpoint security for carry-on 
baggage, we have just procured 250 additional so-called AT 
machines for the checkpoint that are upgradeable, including 
multiview. They will be continually upgradeable by the 
software. So we, as you know, have done a number of pilots over 
the summer. We like the results and put in a buy order for 250 
units.
    Mr. DeFazio. How many machines are there nationwide, 
though?
    Mr. Hawley. Oh, probably a 1,000-odd. So we will continue 
to upgrade the checkpoint technology. On the Backscatter there 
is another technology that we just started.
    Mr. DeFazio. Millimeter wave.
    Mr. Hawley. Millimeter wave and it has been going for a 
couple weeks in Phoenix, and the acceptance rate from people 
offered the chance to go through it is over 93 percent. So we 
are very, very encouraged at the public reception to it. It has 
very good security implications and we are looking at possibly 
deploying it in primary screening, which would be a very big 
step up for security, and that would be my hope going forward, 
is we have a combination of millimeter wave of the person and 
the AT at the checkpoint.
    Mr. DeFazio. I hope we have that as soon as possible, 
because I believe that we are asking people to do the 
impossible with the equipment they have.
    I have another issue. There was some talk about the last 
line of defense is the flight deck door. Do you have authority, 
Mr. Hawley, to mandate a secure cockpit; i.e. We are now 
building planes that are going to fly for up to 24 hours, 787 
and A380? I was told by Airbus--they apparently were mistaken 
or something, I would say politely--that all A380's would have 
secure flight decks. You have crew changes, they would have 
kitchens, they would have labs, they would have sleeping areas, 
and this would all be behind a secure facility.
    I then went to Boeing and said, I think you ought to match 
what Airbus is doing here; this would make a lot of sense. 
Boeing says, Airbus isn't doing that. I went back and Airbus 
said, oh, yeah, you are right, it is an option. Well, no one is 
going to buy the damn option because it costs them one or two 
revenue seats.
    The point of vulnerability is I flew across the country 
yesterday, the pilots came in and out and the flight attendants 
stood behind the cart, but then there was when the FAA 
inspector came out to BS with the flight attendant for half an 
hour, you know; three times that flight deck door was opened in 
one flight.
    Now, in a 24-hour flight with an A380 or 787, the crew will 
be in the back. They will walk all the way through the plane 
and then open the door and go in. This is an extraordinary 
point of vulnerability. Why can't we mandate that? Do you have 
the authority to mandate that?
    Mr. Hawley. We do, but share it with the FAA, because any 
changes to the area frame have to get safety OK from the FAA. 
Your point is well taken. With the FAA we already, as you know, 
have the cockpit door physical requirements, but you put your 
finger on exactly the issue, which is the security measures in 
place when the door is opened in flight. And that is an area 
where further regulation could occur, should that be required.
    Mr. DeFazio. Well, what would it take to say we are about 
to build a new generation of planes, and we are going to say 
that any one of those extended flight planes, newly 
manufactured, is going to land or take off in the United 
States, and we will have to have a secure flight deck? The 
crews will have to be locked in when we take off, and they are 
not coming out and no one is going in until that plane lands. 
And they will have everything they need up there to sustain 
themselves except the company of the flight attendants.
    Chairman Thompson. The gentleman's time has expired. You 
can go ahead and answer the question.
    Mr. Hawley. I would have to take that back to go look at 
it. I appreciate your concern.
    Mr. DeFazio. I would hope the Chairman would join me in 
that, because I have run into a dead-end with the Aviation 
Committee. We might have to take one or two seats out, or 
something out of these planes. These planes are going to be 
unbelievable targets; 700, 800 people in one plane, what a 
target.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you, I would be more than happy to 
join you.
    Gentleman from New York 5 minutes, Mr. King.
    Mr. King. Thank you Mr. Chairman. I want to thank Mr. 
Lungren for filling in for me at the beginning. I couldn't be 
here. I want to thank the Chairman for calling the meeting, and 
I will be yielding most of my time to Mr. Lungren.
    Mr. Hawley, I would like to ask you for one point of 
clarification. Mr. Ervin mentioned the fact that in the IG 
report, the preliminary report that came out in August of 07, 
it said that covert testing was compromised at the airport in 
Mississippi. But as I read it, did it not also say the finding 
was TSA's Office of Inspection did not provide the advance 
notice, that it may have come from employees?
    While it is to me reprehensible that that happened, to me 
there are any number of times in law enforcement when you find 
someone at the ground level will tip somebody off. It obviously 
has to be stopped. But I think to imply that somehow that was 
sanctioned or was encouraged by TSA is wrong, but I ask you for 
your comments on that.
    Mr. Hawley. It was 3-1/2 years ago, and I think the trail 
has gone cold, and I don't know exactly what happened. What is 
important to me is if I can get information on someone who 
acted improperly, I can take action against that person and 
will take action against that person.
    What I can't do is, there was discussion in the airport 
about it 3-1/ years ago. That unfortunately doesn't give me 
room to go attack. But I think as the Chairman is aware, we 
have made major changes at Jackson to increase not only the 
work environment, but the total package there in Jackson. So I 
am highly confident of the security in place at Jackson today.
    Mr. King. I yield the balance of my time to Mr. Lungren.
    Mr. Lungren. Mr. Ervin, you talked about the episodes that 
have occurred in the past and that, therefore, they constitute 
a pattern. When I practiced law, I had to prove pattern and 
practice at times; and it took more than just a couple out of, 
you know, 500 or 450 different airports and tens of thousands 
of actual tests. Do you think your comment is a little harsh?
    And I don't want to undercut anything about anybody who did 
something to undercut the integrity of the testing. But you 
have made a broad statement of a pattern, and I think you 
pointed to three or four. And we are talking over a number of 
years and we are talking about thousands of employees and 
thousands of tests and 408 or 450 airports. Do you still think 
that is a pattern?
    Mr. Ervin. Yes, sir, I do. I do think it is a pattern. And 
I think we can quibble about what constitutes a pattern, but to 
me a pattern is more than one instance. Three or four instances 
over a period of time, particularly when--and this gets back to 
the point that Mr. DeFazio was making--we consistently see year 
after year that screener performance is very, very poor. So, 
yes, I do think it is a pattern.
    Mr. Lungren. OK. Let me ask Mr. Hawley. You have heard the 
comments that we have had dismal performance year after year 
after year. That would suggest to me we have seen no 
improvement. Mr. DeFazio said we have got higher-paid 
employees, we do more testing, more sophisticated testing. I 
would hope that that would bear some fruit.
    Mr. Hawley. Absolutely. And the additional layers of 
security are a critical piece of this.
    Mr. Lungren. Let me ask a question about that.
    Mr. Hawley. Yeah.
    Mr. Lungren. I have read and visited Israel; and they talk 
about behavioral inspection, observing people who are there. We 
are very concerned about profiling and so forth, and I 
understand that legitimate concern. But, on the other hand, 
there is something to be said about having a layer of defense 
that does that. And I don't know if you are allowed to talk 
about that, but, in general terms, do we do that and is that a 
part of the layered approach?
    Mr. Hawley. Yes, very definitely. And we do it in a way 
that is documentable so that it is not based upon racial 
profiling or ethnic or anything like that. It is on observable 
behavior. It is highly successful. We now are doing it 
throughout the country, and it is the best way to get at 
somebody who is not bringing a prohibited item, who is doing 
surveillance or a dry run. You can pick them off with the 
behavior piece, and that is a highly successful method that we 
use.
    And the President sent up a budget amendment this week for 
$163 million. Part of that is to expand the behavior detection 
program to all the major airports for a sizable proportion--
    Mr. Lungren. I only have 20 seconds left. Let me just ask 
you this. When you do covert testing, planning, and execution, 
who in TSA is aware of it and what procedures do you have to 
make sure the information is not disseminated to those who 
shouldn't know it?
    Mr. Hawley. Very limited group. The Office of Inspection 
does our covert testing and informs the leadership of our 
Security Operations Group generally, and then at the time that 
they are doing the testing at the airport they will inform the 
FSD and the local police for safety reasons.
    Chairman Thompson. Thank you very much.
    We yield 5 minutes to the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Let me thank you, Mr. Chairman; and you 
are very right to hold this hearing.
    I look forward to joining Mr. DeFazio I think on a very 
pointed line of questioning that is somewhat different from the 
hearing but focuses on the crucialness of security and the 
conflict of jurisdiction as relates to the FAA. So I hope there 
is a wake-up call, frankly, on us working together on this.
    And for the record, Mr. Hawley, I would like to join Mr. 
Bilirakis in getting a response back on that issue that he 
mentioned in Florida.
    Let me try to frame this as a life-or-death matter. Maybe 
we could focus on the fact that one error in any form of 
Homeland Security may result in the loss of hundreds, thousands 
of lives; and I think that is where we need to focus the 
inquiry made to you. I appreciate you defending or recognizing 
there are hardworking front liners, TSA screeners every day 
going to work. But there is a problem with training.
    And Mr. Kutz, let me not ignore you. But I appreciate your 
testimony, and I think you have laid the framework how vital 
these covert testing procedures are and how the integrity of 
that is crucial to your work. So I thank you, and I won't 
really query you because I want to get the two gentlemen off to 
the side of you.
    I think the problem, Secretary Hawley, is that you never 
knew what happened. We knew that when we formed the Department 
of Homeland Security that we had a big elephant to deal with, 
if I might use that metaphor. But we didn't want bigness to get 
in the way of security. The fact that you were not 
knowledgeable about this e-mail is already a fractured part of 
the structure of this particular department. The other part of 
it is that Secretary Chertoff certainly did not seem to be 
aware of it. So let me pose these questions.
    And might I say to my--and I will say--good friend, Mr. 
Ervin, it is clear that your unceremonious departure, your 
unfortunate departure was one of the Achilles heels of Homeland 
Security. Being told the truth, they asked the person who tells 
the truth to depart; and that goes right to the life-or-death 
matters that we deal with in trying to secure America.
    So let me find out whether or not you ever received any 
documentation of that message being recalled. Where is the data 
that shows the recall messages? I think we don't have them. And 
do you have that data that shows these messages were recalled, 
Mr. Hawley?
    Mr. Hawley. That is a piece that the Inspector General is 
doing. As you know, when the investigation comes in, they go 
after hard drives, they go after systems, and then they take 
them for their testing. So they are working on that piece. And 
if there is exculpatory evidence it will be provided.
    Ms. Jackson Lee. We want those as quickly as possible. I 
know that you are using the IG.
    The other question is, how quickly and why did Mr. 
Restovich not, if you will, notify you? That is a break in the 
system, as far as I am concerned. You said you just heard about 
it through a news report. Mr. Restovich allegedly withdrew it, 
as you tell me that he did, and there is someone who actually 
wrote it, and therefore there was a break in the chain of 
command. Why did you not receive the information that that e-
mail had been issued?
    Mr. Hawley. I can speculate. Mike identified a problem, 
solved it. And things move very fast at--
    Ms. Jackson Lee. Tell Mike that that is not, I think, a 
line of command that is responsible that the committee would 
like to see. Because you are in fact the commander, the chief 
of that area; and I think it is important for you to know that.
    I don't want a response, but I am not very happy with that 
break in the system.
    Let me quickly move to Mr. Ervin, and I have one for you. 
What I would like to see, of course, is that there be a chain 
of command on these security issues and, frankly, believe that 
Secretary Chertoff should also be involved, Secretary Hawley, 
on this point. I think there is something to sending out a 
notice saying ``be on your toes''.
    The problem I have with this e-mail is that it specifically 
points out the actions of the covert actors, Chinese or Asian. 
This is what they are going to do.
    Mr. Ervin, let me go to you on this point. You are 
absolutely right. We have fought and fought for training. And I 
think maybe it will be legislation, maybe it will be money, but 
we give $40 billion to the Department of Homeland Security and 
about $5 billion to aviation security. What can we do? How hard 
a foot do we have to put down on this training--and stringent 
training, if you will--in terms of the TSA screening? I don't 
want to yield to the fact that they are not educated, that they 
can't be trained. What does the Department need to do?
    Mr. Ervin. Well, Ms. Jackson Lee, it is very, very clear 
there needs to be regular training on a consistent basis; and 
then the screeners need to be held can to account if their 
performance on a consistent basis, as I said, is subpar.
    There is no question but that the training, the testing is 
more sophisticated now than it was in 2002, 2001. I never 
disputed that. The issue, though, is, as I say consistently, if 
you look at the classified reports of the specific results at 
airports throughout the country of the thousands of tests, tens 
of thousands of tests over the years that have been conducted 
by these independent Office of Inspector General, the GAO and 
TSA itself, you will see that there has not been any 
appreciable change in screener performance.
    And, by the way, I might add that I have yet to hear a 
convincing explanation as to exactly what the mistake was, if 
there is an acknowledgment that there was a mistake. And if in 
fact this message was recalled, why was it recalled?
    It is pretty clear to me that the reason that it is deemed 
to be a mistake and the reason it was recalled is it was pretty 
clear that it was intended to tip off the screeners. The 
concern was that this was going to get out to the public, as it 
clearly has done, and to embarrass TSA. I have yet to hear an 
explanation otherwise.
    Ms. Jackson Lee. My time is up, but let me just say that 
one pattern for me is devastating, because that could result in 
loss of life. Secretary Hawley, I really want to work with you 
on the training aspect. It might have been well-intentioned to 
generally notify that something is about, be on your toes, but 
I think the specifics of this e-mail is a question that raises 
to a higher level, including yourself and Secretary Chertoff.
    And I thank you. I yield back.
    Chairman Thompson. Thank you very much.
    The gentleman from Pennsylvania, Mr. Dent, for 5 minutes.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Hawley, in followup to what Mr. Lungren had been 
talking about with respect to who has knowledge of the planning 
and execution of these covert tests, let me take it just a 
little step further. Has TSA ever taken any disciplinary action 
against any TSA employees who are involved in giving advanced 
notice of some kind of a prior covert testing to other TSA 
employees or TSOs?
    Mr. Hawley. I am aware of an incident that was just 
resolved in Jackson, Mississippi, where an individual, after a 
covert test, described the way that the test was done to other 
TSOs and received discipline for that. And I believe that on--I 
am not personally familiar with all the disciplinary actions 
before I came to TSA, but that would be one I am aware of.
    Mr. Dent. When would you ordinarily believe that 
disciplinary action--some kind of disciplinary action would be 
warranted?
    Mr. Hawley. Certainly anything that has to do with 
integrity is an automatic. We have a very disciplined program 
for employee discipline that goes through a process that is 
fair and meticulously investigated. I am not part of that. It 
is part of our career management to go through what we call 
disciplinary review, and they dispose of those cases.
    Mr. Dent. Thank you, Mr. Hawley.
    And to Mr. Kutz, what sort of followup will the GAO be 
doing to its 2006 review of the covert security vulnerability 
testing in airports?
    Mr. Kutz. Well, when we issue reports like that, we look to 
see what kind of actions--
    Chairman Thompson. I think you might need to turn on your 
mike. Is it on?
    Mr. Kutz. It is on, yes. I will move it closer.
    Chairman Thompson. OK.
    Mr. Kutz. We always do followup with respect to testing we 
do to determine what kind of actions have been taken. I think 
Mr. Hawley has said that he has used our testing similar to his 
own testing to try to improve operations, including the human 
capital processes and technology. So just because we are 
independent of TSA doesn't mean that he can't use our 
operations in the same manner he uses his own testing.
    Mr. Dent. Can I also ask, too, what is your opinion of 
TSA's Aviation Screening Assessment Program, or ASAP, which 
began in April 2007 that greatly expands TSA's internal covert 
testing programs and performs numerous daily tests?
    Mr. Kutz. Well, we support TSA's covert testing programs, 
whether it be the OI or any other ones that they do, along with 
the IG's testing. I believe that the use of covert testing or 
even blue team testing--we are here talking about whether 
something is covert. In a pure sense, red team covert testing 
versus if someone's tipped off in advance, the testing can 
still be valuable even if people are tipped off in advance. And 
so I think any type of testing that is being done is 
constructive in this environment.
    Mr. Dent. OK. Thanks.
    I will yield back, Mr. Chairman. Thank you.
    Chairman Thompson. Thank you very much.
    We now yield to the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Chairman, it has been said there is beauty in truth; 
and Scripture tells us that if you know the truth, the truth 
will set you free. I really am interested in the truth today. 
So if I may, Mr. Chairman, may I approach the witness, Mr. 
Hawley? I have something I would like to present to him.
    Chairman Thompson. Please. Five minutes.
    Mr. Green. I understand. I just want to make sure, Mr. 
Chairman, that Mr. Hawley and I are talking about the same 
memo. Mr. Hawley, is this the e-mail that we have been 
referencing this morning?
    Mr. Hawley. It appears it is, yes.
    Mr. Green. And, Mr. Hawley, is it true that there was some 
sort of test that was taking place that this e-mail references?
    Mr. Hawley. There were IG tests going on at the same time. 
This was--I should tell you--
    Mr. Green. If you would, please, the Chairman has reminded 
me I only have 5 minutes.
    Mr. Hawley. Sure.
    Mr. Green. Is it true that there were tests taking place 
that were referenced in this e-mail?
    Mr. Hawley. I don't know. I would assume that--
    Mr. Green. Mr. Hawley, you came prepared to testify today. 
Surely you know whether there were tests taking place.
    Mr. Hawley. No, there were tests in place.
    Mr. Green. All right.
    Mr. Hawley. I do not know the origin of the words used in 
this e-mail, so I can't tell you--
    Mr. Green. Please now, we don't want to go to the origin of 
words. Your diction has been superb. It has been superb.
    But let us now talk about whether there were tests taking 
place. And your answer is yes.
    Mr. Hawley. Correct.
    Mr. Green. Is it true that the language in that e-mail 
references some aspects of the tests that were taking place? 
Without going into the language.
    Mr. Hawley. I believe they do, although it is ambiguous--
    Mr. Green. If it is true that there were tests taking place 
and the language of the e-mail makes reference to the tests, 
Mr. Hawley, how can you say that there was no cheating? How can 
you say that there was no tip-off? Because that is what that 
language references. It references the test, and it tells 
someone that there was going to be a test. Is this true?
    Mr. Hawley. Mr. Green--
    Mr. Green. Is this true?
    Mr. Hawley. It is--
    Mr. Green. Is this true?
    Mr. Hawley. The which?
    Mr. Green. Is it true that that language references a test 
that was going to take place?
    Mr. Hawley. It appears to me, which is why we asked the 
question.
    Mr. Green. If that is the case, then why would you come 
today and talk about integrity of a person? Mr. Hawley, don't 
you understand that if a person pulls out a gun and he kills 
me, whether he does it by accident or design I am still dead? 
We are talking about whether or not there was a tip-off, not 
whether or not someone did it with malice aforethought. Maybe 
it was done accidentally. This is about a cover blown and a 
tip-off. That is the style of this hearing. The Chairman made 
this transpicuously clear.
    The question is, was there cover blown? Was there cover 
blown, Mr. Hawley?
    Mr. Hawley. The investigation by the IG will decide that.
    Mr. Green. Does that memo cause you to conclude that some 
cover was blown, Mr. Hawley?
    Mr. Hawley. It causes--
    Mr. Green. If not, why would you recall it if there was no 
cover blown?
    Mr. Hawley. No, I think it is--I looked at this and said, 
what the heck is going on?
    Mr. Green. Exactly.
    Mr. Hawley. I think the purpose--
    Mr. Green. Why would that memo be recalled if there was no 
cover blown?
    Mr. Hawley. Because the individual who sent it out did not 
know the covert testing. He looked in his e-mail, and it came 
from a credible source--
    Mr. Green. Whether he had knowledge or not, if what is 
contained in it is true, it doesn't matter whether he had 
actual knowledge. Maybe he heard it third hand. Maybe it was 
not primary, secondary, or tertiary or quaternary. He heard it, 
and it went out. The question is, was cover blown?
    Mr. Hawley. No. This was not an integrity issue. The 
individuals acted honorably, and they acted--
    Mr. Green. I am not interested in integrity. I am 
interested in the consequences. I am interested in what 
happened. Let us not talk about integrity.
    Was cover blown? Was there a test that was referenced? You 
said there was.
    Now, Mr. Hawley, listen now, this is not about trying to 
dissect words so that we can present an image that is less than 
truthful. Mr. Hawley, this is about truth. And the truth is 
there was some cover blown pursuant to that memo that was 
recalled.
    And it should have been recalled, by the way. I think the 
recalling of it was the appropriate thing to do. But what we 
don't want to do is come to these hearings and cause the 
American public to think that they are getting what they are 
paying for in terms of security and deserve by virtue of what 
we do here in this country to protect people, we don't want 
them to think that they are getting it when they are not. The 
truth is, there is a problem here; and you are not being 
helpful by causing people to conclude that there was no cover 
blown with reference to that memo.
    Mr. Hawley. All I ask is no rush to judgment. There is an 
investigation going on. Let it complete. But I cannot live with 
these statements that say there was an integrity problem.
    Mr. Green. I am not talking about--I have 10 seconds. 
Listen. If you would divorce yourself from integrity and let us 
talk about facts. That is what I--that is why I approached you 
with that memo. I wanted to make sure you and I were talking 
about the same document.
    Let us talk about the facts. There is no question that that 
memo references actions that were taking place, and there is no 
question that you had to recall it. Because you knew and should 
have known--if you didn't know after reading it, you knew or 
should have known that that could be a blow of cover. And that 
is why you recalled it. That is what happened.
    Mr. Hawley. I will never separate myself from integrity.
    Mr. Green. I don't ask you to separate yourself from 
integrity. I just said let us talk about the facts. Because 
William Cullen Bryant is right, truth crushed to earth shall 
rise again. And Carlyle was right, no lie can live forever. And 
Dr. King is right, although the arc of the moral universe is 
long, it bends toward justice. We are talking about justice, 
sir.
    I yield back.
    Mrs. Lowey [presiding]. Mr. Etheridge.
    Mr. Etheridge. Thank you.
    Mr. Kutz, your written testimony refers to the 2006 GAO's 
classified report on covert testing in several airports across 
the country. Your testimony states that your investigators 
passed through the checkpoints, quote, without being caught. 
According to the NBC and ABC reports, GAO tested 21 airports 
and were successful in sneaking explosives through the 
checkpoints 21 times. Last month, USA Today reported on the 
results of the covert testing done by TSA. According to some 
data that they released, they reported TSA found 80 percent of 
the fake bombs at San Francisco International Airport. They 
also found 25 percent of the fake bombs at Los Angeles 
International Airport and 40 percent at Chicago O'Hare.
    While any failure in our Nation's screening portals is 
unacceptable, they are clearly much better than ones found by 
GAO. So my question is, do you have any thoughts as to why 
these were--why there was such a wide discrepancy between these 
two? And are the differences in the testing methodologies used 
by TSA and GAO enough to explain the differences?
    Mr. Kutz. We were able to bring, as you mentioned, 
improvised explosive devices and incendiary devices on board 
aircraft. I can't discuss the specifics of how we do that.
    Mr. Etheridge. I understand that.
    Mr. Kutz. How we test. You understand that. And we did 
find, as Mr. Hawley has mentioned, which their own testing 
finds, also, vulnerabilities in various areas. And, again, I 
can't get more detailed than that.
    So how to explain the differences in the tests, I don't 
know exactly what the tests were that they did, but we 
certainly concealed, either on our person or carry-on luggage, 
various types of items that were brought onto aircraft. So that 
is the kind of testing that they do. And why they would have 
had a lower rate than we had, I don't know the answer to that.
    Mr. Etheridge. Mr. Hawley, TSA's explanation for the 
continued failure to find these decoy bombs is the tests are 
very hard. I think you have shared that earlier today. Your 
spokeswoman reportedly said, and I quote, we want to have 
higher failure rates because it shows that we are raising the 
bar and the tests are harder. Now I don't know about other 
people, but failure rates like this don't give me a whole lot 
of confidence.
    Mr. Hawley. Some of those are not accurate.
    Mr. Etheridge. Let me finish, and I will tell you a 
question. Because I hope the terrorists don't look at this and 
say that, you know, they like their chances. I think we need to 
have difficulty, and I think we need to have realistic tests. I 
think we all can agree with that. However, Transportation 
Safety Officers--and, you know, they need to be able to pass 
the test. I understand that. But my question is this. No. 1, do 
you stand by your spokeswoman's comments? And, No. 2, what 
steps are being taken to ensure that we really do run realistic 
tests?
    You have talked about that this morning and that TSA is 
prepared to stop more than 25 percent. Not 40 percent, not even 
80 percent, but we have to get to a hundred percent. I think 
that is critical, and I think we can all agree on that. Because 
if any of these materials get on an airplane, we are in 
trouble; and I would be interested in your comment on that.
    Mr. Hawley. There are a couple points.
    One, if you just test one individual layer, that doesn't 
tell you anything about the system integrity. So what we do is 
we design the other layers that we put in place to close 
vulnerabilities that might be present in one other layer. And 
that is what we are doing here with the document checker, the 
behavior detection, with all these other programs, are to 
buttress up vulnerabilities elsewhere.
    Mr. Etheridge. Are you saying then that these did not get 
on the plane?
    Mr. Hawley. Well, some of them were not tests at all. There 
is some quibbling with it in the USA Today article. Those 
weren't referring to tests. That was referring to training.
    But the overall thrust of it is that there are 
vulnerabilities. We learn of them and we fix them by virtue of 
either training, technology, or adding additional layers. And 
back on the issue of training, we had 3 million hours of 
additional training in 2007.
    Mr. Etheridge. Let me back to the original point, though. 
You are saying GAO didn't get all the way to the plane with 
theirs either?
    Mr. Hawley. No, on the GAO I am not going to get into the 
classified--
    Mr. Etheridge. I am not asking on the classified. I am just 
asking, did it get through?
    Mr. Hawley. Well, I don't believe they actually had 
explosives. I think there is a lot of complexity to the tests. 
I think they proved some interesting things about training and 
about technology that I welcome, accept, and use. But as far as 
getting on the plane--
    Mr. Etheridge. I see my time has expired, Madam Chair, but 
I do think this might require a little classified conversation 
later to get more detail. I yield back.
    Mrs. Lowey. Thank you very much, and we will continue until 
it is time to vote. Thank you very much.
    Mr. Hawley, what is the turnover rate of employees at TSA?
    Mr. Hawley. Well, for TSOs, it is about 21 percent; and for 
the headquarters staff it is much, much lower.
    Mrs. Lowey. Do you think--you have been talking a lot about 
training--that in this particular instance if the workers were 
operating under better conditions--and I won't go into greater 
detail, but I would like you to submit that to me in writing, 
what is the average term that people are staying there? What 
kind of training have they received in the interim? What kind 
of salaries are they getting? Is there collective bargaining? I 
don't believe there is. Is there a whistle protection act? 
Maybe one of those people who had seen the e-mails could have 
responded if they didn't fear retribution. So I would be very 
interested in the personnel policies.
    And with the training that you are providing, how does it 
keep people working in a more professional way and staying for 
a longer period of time? If you can provide that to me I would 
be most appreciative.
    Mrs. Lowey. Second, Mr. Ervin has stated that GAO doesn't 
alert anybody. GAO's inspections in a whole range of issues, as 
far as I am concerned, have been quite effective; and I believe 
you said if there is an incident that would occur they would 
pounce down.
    In your testimony, Mr. Hawley, you say for safety purposes 
airport law enforcement are notified prior to testing. Do you 
want to comment on that?
    And perhaps, Mr. Ervin, does GAO--am I correct? Did I hear 
they do not notify anybody? And, therefore, when they are going 
in they are doing an effective evaluation because they don't 
have to worry about people being tipped off?
    And, by the way, I think Ms. Lee mentioned before, I think, 
sending out notices every day to remind the people of what they 
have to do is a good idea. But not alerting them then that 
inspectors are coming, because that would in my judgment really 
negate the effectiveness.
    Could you comment, Mr. Ervin?
    Mr. Ervin. Sure, Ms. Lowey, of course, GAO can speak for 
itself, but I just confirmed with Mr. Kutz before the hearing 
began that it is GAO's practice not to inform anybody before 
they begin their tests. And certainly that is a valid judgment, 
and it makes the tests less likely to be compromised.
    When I was the Inspector General at DHS--and my 
understanding is this practice continues today--there is 
notification, but it is to very small numbers of people, I 
believe just the FSD, and only minutes before the testing 
actually takes place. And that is done so as, on the one hand, 
to protect the screeners and everybody else from being killed 
actually in extremis or from having a costly evacuation of the 
airport simply because of a test. But it is done, as I say, 
just minutes before so as to minimize the possibility of 
compromise. That is the balance that we struck there.
    Mrs. Lowey. Mr. Hawley?
    Mr. Hawley. We have a difference of opinion, and there is a 
tradeoff. With the no-notice tests, they don't use actual bomb 
components that have explosive residue on them. So we get 
tremendous value out of using the actual components with the 
actual explosive residue. That will test--if we are after a 
particular kind of attack, we will be able to fine-tune exactly 
on the basis of that. So what the GAO gains by no notice there 
is a downside that you don't get to use the real stuff. So the 
flip side is that we do notice because of security concerns, as 
Mr. Ervin mentioned.
    Mr. Kutz. Could I just comment, too?
    Mrs. Lowey. Certainly.
    Mr. Kutz. When I say ``real stuff'', we don't use 
explosives, we use improvised explosives. So these are things 
available in grocery stores, for example, those types of 
things.
    But with respect to the cover team, I mean--and, again, his 
position is with what their protocols are they would notify law 
enforcement. We simply have a cover team that serves a similar 
purpose, that if someone does get caught doing a covert test it 
is supposed to defuse the situation so that there isn't a 
security concern.
    So that is how we have had instances before where we have 
been caught in our testing, and it simply defuses the situation 
having a cover team right there to say this is GAO, and this is 
a test.
    Mrs. Lowey. I thank you very much.
    Mr. Hawley, there clearly seems to be a difference of 
opinion on this; and to make this effective I think we should 
have further discussion on how we can be most effective. 
Because, frankly, as a New Yorker, I am very concerned about 
the fact that we are perhaps not training our workers as 
effectively as we could; and, in fact, I am very concerned 
about the attrition rate. And if we had people in place for 
longer periods of time and did provide whistleblower protection 
perhaps this kind of an incident could be avoided.
    And in the 21 seconds, the committee informs me, and I see 
this list of e-mails, and if we are talking about integrity, it 
seems very strange that there is a whole list of 37 e-mails, 
but the recalled e-mail is not included. Now it may be a minor 
issue. Because, frankly, in my judgment is once the e-mail went 
out the whole recall is just kind of self-defense, but it 
really doesn't accomplish anything.
    So the issue of worker training, what are we doing to make 
sure our force is as experienced as we can, whistleblower 
protection to make sure if someone finds something out they 
will have, without fear of retribution, the responsibility to 
report to somebody.
    And it is still strange to me that Mr. Restovich kept this 
all to himself and he didn't think it was important enough and 
that it wasn't compromising the inspection to tell you about 
it.
    But my time is up. I think are we going to recess? We will 
recess for a series of four votes. We will reconvene 
immediately after the last vote, about 30 minutes or so.
    There have been many issues that have been raised, and I do 
hope we can have further discussion. Thank you very much.
    [recess.]
    Chairman Thompson [presiding]. We would like to start our 
meeting back.
    Mr. Pascrell, before I call on you for your 5 minutes, I 
understand, Mr. Hawley, you want to make a clarification of 
some previous testimony?
    Mr. Hawley. Yes. It was related to our exchange about the 
recall of the e-mail we have in question. You had inquired 
whether TSA would be forthcoming in providing the committee 
with such as it has. And the answer is yes. We will work with 
your staff to, you know, abide by any applicable rules of 
ethics and good form that would apply with the IG, but I want 
to be unequivocal in saying we are fully supportive of this 
investigation.
    Chairman Thompson. Thank you very much.
    Mr. Pascrell for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, I just wanted to clarify something that the 
Secretary mentioned last time he was here concerning 
whistleblowers. I interpreted what you said as a commitment. 
Would you just very briefly tell us that commitment again and 
where we are about whistleblowing--
    Mr. Hawley. Yes, sir.
    Mr. Pascrell [continuing]. With screeners who are in the 
law, as you know?
    Mr. Hawley. Yes, sir. Very much related to this hearing 
today is the integrity of the whole process, which includes 
whistleblowing protection, that we have in place whistleblowing 
protection. But you and other members have suggested that we go 
into the formal process for the rest of the government. We are 
looking at that, and I expect that we will have--that we will 
get to that point with that solution that we will implement.
    Mr. Pascrell. I think this is going to be a giant step if 
you do what you say you are doing.
    Mr. Hawley. We will find out.
    Mr. Pascrell. Second, I would ask you to give serious 
consideration again, as I have talked to the Secretary Chertoff 
about problems, having enough screeners; second, them being 
properly trained. And we have a better chance of fulfilling our 
mission if we hire former law enforcement officers who are 
trained to study behavior, eye, facial expressions and 
everything else. That is my second suggestion.
    Mr. Hawley. Thank you, sir.
    Mr. Pascrell. In 2003, the President of the United States 
in his State of the Union address said the following, Mr. 
Hawley: It would take--in talking about Homeland Security--it 
would take just one vial, one canister, one crate slipped into 
this country to bring a day of horror like none we have ever, 
ever known. We will do everything in our power to make sure 
that that day never comes.
    I want to remind the Department about what the President 
said and what I thought was a pretty good speech, although I 
didn't agree with much of it. That is beside the point.
    These are troubling times here. We are trying to get to the 
truth. You know, Mr. Hawley, the memo that we are referring to. 
You just made mention of it again. My first question is, did 
anyone else--have you ever seen a notification like this 
before?
    Mr. Hawley. No.
    Mr. Pascrell. You have never seen a notification like the 
one that you just--the Congressman Green showed you earlier and 
that you just referenced at the beginning of my questioning?
    Mr. Hawley. That is correct.
    Mr. Pascrell. Never seen that. Now Mr. Restovich's name is 
on here. Apparently, he never saw it before it went out?
    Mr. Hawley. Correct. That is my understanding.
    Mr. Pascrell. He never saw it?
    Mr. Hawley. I would like to say that the Inspector General 
has his own investigation that will be the definitive one. From 
what I--
    Mr. Pascrell. So it may be that whoever sent this out with 
Mr. Restovich's name on it maybe asked Mr. Restovich whether he 
should or shouldn't. We just don't know. All Mr. Restovich is 
saying is that he didn't send it out. That doesn't mean he 
didn't write it.
    Mr. Hawley. Well, we will wait for the Inspector General. I 
believe with everything I know Mr. Restovich had no knowledge 
of this e-mail until after it had been sent.
    Mr. Pascrell. And I take exception--it looks like--if you 
read this carefully, it looks like there has been others before 
this. It is just too smooth. It didn't come out of the air. It 
wasn't invented on that morning.
    Mr. Hawley. May I respond to that?
    Mr. Pascrell. Sure.
    Mr. Hawley. It is a cut-and-paste job. What happened is the 
individual who did send it out saw that, saw the anomaly with 
the DOT/FAA, was concerned that it might be an al-Qa'ida probe 
using false credentials, because there is no FAA/DOT allowable 
instant testing, and was concerned that we would be missing 
moments. And as you reference the President's speech, it is all 
about not letting an attack happen, and it is all about getting 
the information to the people who can do something about it. 
And in his belief he thought he was doing the right thing to 
get information out there, with the consequence being--
    Mr. Pascrell. Apparently, he thought he had the power to do 
this, whoever sent it out.
    Mr. Hawley. Well, I want of all of our officers, if they 
feel there is a danger, to get the information to the people 
who can use it and stop an attack in process. And that is 
pretty hard to criticize.
    Mr. Pascrell. I have to take exception with you, Mr. 
Secretary, about in your testimony earlier you talked about an 
incident that happened in Cleveland the day before. Yes, an 
incident happened, but if you want me and this committee to 
believe that that is one of the reasons why this was sent out, 
I find that as a stretch at best.
    Mr. Hawley. May I respond to that?
    Mr. Pascrell. I am not asking a question. You can respond 
to it when I ask a question.
    Mr. Hawley. Sure.
    Mr. Pascrell. The Bush administration promised us a 
Homeland Security Department and a transportation 
administration that could secure our skies. Yet after all this 
time the greatest assurance that the American public can take 
in their own security when flying is the knowledge of how much 
hair gel they can carry on board with them.
    We have talked ad nauseam about the critical role of 
screeners in aviation security, and yet we know that TSA 
screeners likely have the lowest morale of any group. They have 
got the lowest morale in the Department. They have got the 
lowest morale in the entire government, Homeland Security. That 
is pretty, pretty interesting.
    And who could possibly blame them? We asked that they be 
the last line of defense to prevent another 9/11 style attack, 
and yet this Department has done everything possible I think 
before you got there, after you got there to demoralize them.
    We need to listen to them. They are on the front lines. Not 
me, not you. Their supervisors give them a deaf ear. And I hear 
this all over.
    Now, you may have evidence to the contrary. I have never 
seen it. Instead of empowering them, you refuse to give them 
this full whistleblower protection that we talked about.
    It has been a month now. We need to act on this. Instead of 
respecting them, you go to extreme lengths to deny them the 
collective bargaining rights they deserve, chapter two.
    So here is my question. Is it any wonder why so many of 
them feel dejected?
    Mr. Hawley, what are you going to do about it to improve 
the morale of the troops? And don't tell me it is wonderful, 
because you know it is not.
    Mr. Hawley. Our work force is fully engaged, and I think 
you will never have a better test than the morning of August 
10th, 2006, when we changed the entire security protocol of the 
United States instantaneously, and it went smoothly and 
continued smoothly. And it is because our officers are leaning 
forward and are committed. We have supported them with career 
progression, pay raises, better training, better equipment. The 
reforms that have happened in our personnel system over the 
last year and a half are astounding. And I would ask anyone to 
give a fair review of these additional--these matters; and I 
would ask each Member of Congress, when you go through your 
airports, talk to your TSOs--
    Mr. Pascrell. I do.
    Mr. Hawley [continuing]. And find out what the difference 
is between maybe 2003 and what we have out there protecting our 
country in 2007. And I am very proud of that work force, and I 
believe we are locked tight together in the same mission.
    Mr. Pascrell. Mr. Chairman, can I ask two yes or no 
questions? Quickly?
    Chairman Thompson. Go ahead.
    Mr. Pascrell. Thank you.
    Two quick yes or nos. Do you believe in your heart that the 
screeners should be deprived of collective bargaining? Yes or 
no?
    Mr. Hawley. I believe we have a great work force, and that 
is a requirement for security.
    Mr. Pascrell. You answered my question.
    The second question is this. Is there any desire on the 
part--has there been any discussion, yes or no, on the 
discussion of privatizing, going back to rent-a-cop with the 
screeners? Any discussion about that?
    Mr. Hawley. We have a system of that, but--we have a system 
where airports may apply for that. We have not had a system-
wide evaluation that would suggest we move in that direction. 
So I think the answer to that is no.
    Chairman Thompson. Thank you very much.
    We now yield 5 minutes to the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    Just a couple questions about the memo; and Mr. Green, I 
think, did a good job sort of dissecting the importance of it. 
But I just want to start kind of at the top. Mr. Hawley, Mr. 
Ervin, Mr. Kutz, if you would take a look at it. It was sent 
April 28, 2006, 2:51, to, it seems to me, just about everybody 
in TSA. Is that right?
    Mr. Hawley. Many hundreds.
    Mr. Perlmutter. And then there is a CC to TSNM commercial 
airlines, TSNM commercial airports. Who is that?
    Mr. Hawley. It is an internal TSA group called 
Transportation Sector Management. They deal with the airlines 
and the airports.
    Mr. Perlmutter. OK. And so it is still within the TSA--
    Mr. Hawley. Correct.
    Mr. Perlmutter [continuing]. Sphere. It isn't the airports 
themselves. It isn't the airlines themselves.
    Mr. Hawley. That is correct.
    Mr. Perlmutter. Then we have James Schear, Earl Morris, 
Morris McGowan. Mike Restovich is shown as a CC, which kind of 
lends credence to the fact he didn't send it, because he was 
getting a CC of it. Who are those folks? And then Susan 
Tashiro.
    Mr. Hawley. They are executives in the Office of Security 
Operations, either Mike Restovich's deputy, general manager in 
the case of Earl Morris, and Susan Tashiro was assistant to 
Mike Restovich.
    Mr. Perlmutter. OK. Now I understand you all have this 
under investigation and you are going to get to the bottom of 
how this occurred. But at least a story that has been presented 
to you is that somebody thought that this was--
    You know, the way I am looking at this is you guys do 
covert testing. In my sort of vernacular as a dad it is a pop 
quiz. And if you are going to give pop quizzes, hopefully 
people have had training and education and they can respond to 
a pop quiz. And in this instance we have several people that 
give pop quizzes. Somebody else from some other agency may pop 
in and give a pop quiz, and that is kind of where the IG or the 
GAO is coming from.
    Now, the story that you have at least given to us is that 
whoever sent this out was concerned that it was a phony pop 
quiz, and it was being disseminated or being put out there by 
some group that would like to do us harm. Is that right?
    Mr. Hawley. That is correct.
    Mr. Perlmutter. OK. Now--and I will accept that, and your 
investigation will get down to the bottom of that. But I guess 
from my point of view is, if that is the case, if it is a probe 
by some outside organization that is trying to hurt us, that 
you would get notice of that like ASAP, just as your acronym 
for this new organization that you, Kip Hawley, and, you know, 
would be informed immediately. Right? You see what I am saying?
    Mr. Hawley. Absolutely.
    Mr. Perlmutter. So if there were an al-Qa'ida probe, as you 
just mentioned a second ago, that is something I would expect 
to go right to the top.
    Mr. Hawley. Exactly.
    Mr. Perlmutter. But it didn't in this instance.
    Mr. Hawley. Exactly.
    Mr. Perlmutter. OK. So Mr. Green's inquiry, really he 
didn't care whether it was an intentional act or just a 
mistake. It still happened, and it breached the system. OK. I 
am concerned, whether it was an intentional act or a mistake, 
that protocol advising you wasn't followed. That to me is the 
more damning thing in this.
    Mr. Hawley. Yes. I think you have raised an excellent 
issue. And one of the reasons that Mike had a problem with the 
e-mail was that we have our Transportation Security Operations 
Center that is the incident management and that our protocol, 
is all of those things, probes or anything else, goes through 
TSOC and they do have immediate contact with me. So NetHub was 
the wrong place to send out an operational e-mail. So that is 
one of the learnings that we have from it, of which there are 
many.
    But the individual saw this as a cut-and-paste thing, 
thought his duty was to get it out immediately, did it in good 
faith. He was wrong, and it was recalled.
    Mr. Perlmutter. All right. And I have so many questions. 
But I will just--OK. Hopefully, this is--whoever sent this and 
has the--and you said you want your agents, your officers to 
really, if there is a threat, bang, get out there; and I don't 
quarrel with that a bit. OK?
    We just can't cry wolf too much, but obviously we want to 
alert people, coordinate, communicate. They have got to be 
educated enough not to do a cut and paste. I mean, one of the 
things that is bothering Mr. Green so much, you read this--just 
the language of the memo is a tip-off. OK? If he was just going 
to say, hey, I think there is something phony going on here, 
everybody keep your eyes open, bang, I can, you know, respect 
that. That isn't what this says.
    So my time is up. I got a million other questions, and I 
will save them for some other time.
    Mr. Hawley. I don't disagree with that last comment.
    Chairman Thompson. Thank you very much.
    We yield 5 minutes to the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Assistant Secretary Hawley, in your testimony you note that 
the April 28, 2006, incident is currently under investigation 
by the DHS Inspector General. However, I am taking from this 
hearing that this incident may only be one small instance of a 
far greater problem. Have you begun any investigation into 
other alleged incidents where covert testing was compromised? 
Is the current investigation focused solely on the April, 2006, 
incident or is it probing the fact that this problem seemed to 
go far deeper than just a one-time incident?
    Mr. Hawley. We have a system in place. One of them is the 
whistleblower that Mr. Pascrell referred to, and anytime there 
is an allegation of any sort in this area it would be actively 
investigated. I know of no other investigations at this time on 
this subject other than this one, which is being done by the 
Inspector General. The other ones that we have mentioned in 
this hearing, San Francisco and Jackson, were also the subject 
of IG investigations that have been concluded in San 
Francisco's and almost concluded in the Jackson.
    Ms. Clarke. And do you find or has there been any analysis 
of any commonalities in terms of those breaches?
    Mr. Hawley. Yes. And they are, to my belief, isolated 
instances. I should say that today every checkpoint, every 
shift every day has covert testing. So for somebody to say, 
guess what, you are going to have covert testing on your 
checkpoints, it happens every day at every checkpoint every 
shift. So that is why I point out it is just not part of--it 
doesn't make sense in the TSA context. It would serve no point 
because, yes, every checkpoint is covert tested every shift.
    Ms. Clarke. It just seems to me that for the screeners to 
sort of reach a point where they are comfortable there has to 
be a threshold that is met. And it just--there appears to be 
some serious degradation of the integrity of the professional 
development of these screeners when you have an incident of 
this magnitude. How do they differentiate between, you know, 
what protocol standards are being set versus something that 
would override it? How do you differentiate that?
    Mr. Hawley. Well, our officers--I think we have had over 
the last 2 years exceptional training. We have a hundred bomb 
appraisal officers deployed in the field that constantly do the 
testing. We do these ASAP drills and checkpoint drills, and we 
have built into our staffing package the full boat of training. 
And in 2007 it was three million hours on top of all of these 
checkpoint drills that I am talking about. So we understand the 
importance of the human factor in this is critical.
    Ms. Clarke. Exactly. And I think that is the challenge. At 
what point does the screener just sort of blow things off?
    Mr. Hawley. Never. Never. And it is part of keeping--the 
learning is part of the thinking. And one of the issues we 
have--and people say this all the time, hey, I got through with 
this, they let me with that. But what is going to happen if we 
say we trust you, you are trained, you make a decision and you 
be accountable for the decision? What you are going to have is 
people complaining I don't get the answer everywhere. And we 
affirmatively accept that criticism and say--because, 
otherwise, we are telling our work force not to think.
    And we need to beat al-Qa'ida. With the stuff that they are 
throwing at us, we need them to think. And there is nobody that 
has seen more people going through the checkpoints than the 
officer.
    Ms. Clarke. My question--my next question is for you, Mr. 
Kutz. Your written testimony references the GAO's 2006 
classified report on covert tests of several airports across 
the country. Your testimony states that your investigators 
passed through the checkpoints without being caught. Further, 
NBC and ABC reported that GAO tested 21 airports and was 
successful sneaking explosives through the checkpoints all 21 
times. TSA's success rate, as recently reported in the media, 
was better than that. Do you believe that GAO's covert testing 
protocols could result in such a drastic difference in success 
rates? And just sort of give us a sense of why.
    Mr. Kutz. Not necessarily. I mean, only if the screening 
lines, again, are tipped off, which, you know, there is an 
investigation of that about the specifics of what actually is 
coming. So I don't know if that would account for any 
differences there. And I don't know the exact testing that they 
do. They do such a wide variety of testing. Our testing was one 
type of test at 21 different airports by two testers; and so it 
was a very narrowly focused test on incendiary devices, 
including explosive devices.
    And, again, I can't account for the difference between what 
they test because they do such--as Mr. Hawley mentioned, their 
testing is so extensive and widespread that there could be 
other factors that result in the differences in the results.
    Ms. Clarke. And could you explain the concept of red team 
testing?
    Mr. Kutz. Red team where we operate is, again, we are &1 
Legislative branch agency, we report to you. We do testing for 
Members of Congress and committees and subcommittees. Red team 
for us is we are independent of th. Executive branch agencies 
that we test. Within GAO, only a few people know, typically, 
that we are doing a red team test; and no one at the agency is 
informed in advance of the test.
    So, for example, if we did airport testing, we would not 
tell TSA until after we had tested all of the airports. Once we 
test all of the airports, our protocols are first to report our 
results back to the congressional committees, and then we would 
sit down with Mr. Hawley and/or his people and discuss the 
details of what we did, what we found; and we would provide any 
suggestions for improvement based upon what we did.
    Ms. Clarke. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman Thompson. Thank you very much.
    Mr. Kutz, knowing what you have gleaned from this hearing 
and that memo, how would you suggest to TSA that we prevent 
similar occurrences like that or enhance a system to prevent 
it?
    Mr. Kutz. Well, it is more difficult at TSA. Keep in mind 
TSA is testing themselves. When we do a test we work for you. 
We operate on a separate network from TSA. We are absolutely 
independent, physical location independent, et cetera. So it is 
easier for us probably to make sure that absolutely no one at 
TSA knows that a test is happening. So it is difficult. I think 
internally--and they apparently have other protocols that they 
follow to try to make sure that people don't know that there is 
tests in advance. It is going to have to be a TSA-specific 
protocol. We are in a perfect position to do what I would call 
a pure covert red team test from where we sit.
    Chairman Thompson. So in essence you say it is very 
difficult to kind of police yourself?
    Mr. Kutz. It is hard. You are testing yourself. Mr. 
Hawley's people are testing themselves constantly, so it is not 
surprising in some instances people might know in advance there 
is a test. I am not saying that is what happens, but it 
wouldn't be as surprising for them to have that happen as if we 
had it happen. It has never happened since I have led FSI or 
since I have worked with our former Office of Special 
Investigations where anyone has been tipped off. And again, I 
would be surprised if it ever does happen the way we always 
have it set up.
    Chairman Thompson. Mr. Hawley, you referenced whistleblower 
in your statement in reference to Mr. Pascrell. Explain a 
little bit about the present whistleblower system.
    Mr. Hawley. We have a system where, if somebody has a 
whistleblower issue, they are protected. And we use the Office 
of Special Counsel, which is a separate independent government 
body to be the appeal authority; and they conduct their 
investigation. So it is the equivalent of the formal MSPB 
protection, but it is not identical to it. And what Mr. 
Pascrell has suggested, and I think is a good idea, is that we 
should adopt the MSPB formal process so there is no doubt and 
there is clarity in the whistleblowing protection. I think that 
is a fine suggestion.
    Chairman Thompson. But it is an internal process?
    Mr. Hawley. No, no, no. It starts as an internal process, 
and then it goes to the Office of Special Counsel. It is 
outside. It goes outside. There is an outside, independent 
review. It is just not the same one as they use for MSPB.
    And I think we are vehemently agreeing here. We all want 
the same thing, which is if somebody sees something that needs 
to get reported, have a system that protects the public by 
making it have integrity. And, you know, the feedback here says 
use this system. I think that is fine.
    Chairman Thompson. Thank you very much.
    Any questions from anyone? Mr. Pascrell?
    Mr. Pascrell. Yeah. Mr. Kutz, how often do you do 
inspections?
    Mr. Kutz. The covert testing that we do?
    Mr. Pascrell. Yes.
    Mr. Kutz. We have some ongoing right now as we speak. So I 
would say on a day-to-day basis we have something we are 
testing.
    Mr. Pascrell. Let us take Newark Airport. I was going to 
say you take it. Let us take Newark Airport. How frequently in 
the last 30 days could we have possibly had some covert 
activity on your part, on the GAO's part at that airport?
    Mr. Kutz. If you are taking airports, I was speaking 
broader, governmentwide covert testing that we do, not airport 
specific. So when I said something is going on every day for 
us, it isn't necessarily TSA. It could be anyone in the 
government we are testing. So we do very rare airport security 
testing. That is a very small piece of our broader portfolio. 
We are not doing any airport testing as I speak today.
    Mr. Pascrell. You are not?
    Mr. Kutz. No.
    Mr. Pascrell. So the only testing going on at the airport 
is what the Department does?
    Mr. Kutz. Unless the IG is doing it. I understand the IG 
also does covert testing.
    Mr. Pascrell. So how do we know, how can we conclude that 
there is testing going on and it is valuable and they are 
finding out what is going on that is right and wrong in the 
process of screening, Mr. Kutz?
    Mr. Kutz. There are other people in GAO that look at their 
covert testing process from a program perspective, and so they 
do constant reviews. They don't do the actual covert testing 
like we do. We are an investigative unit. That is what we do. 
They do performance reviews and constantly are looking at Mr. 
Hawley's operations, including their covert testing. And so I 
can tell you that there is extensive covert testing that 
happens at TSA based upon GAO work.
    Mr. Pascrell. And that operation deals with the actual 
human being going through the process of being checked, the 
luggage being checked? So you are a third party that comes in 
to see if it is being done?
    Mr. Kutz. Yes. I don't think they necessarily will do the 
covert testing with Mr. Hawley's group.
    Mr. Pascrell. No, I am not saying that.
    Mr. Kutz. But they will review the results and look at the 
various processes.
    Mr. Pascrell. Do we get those reports from the GAO 
specifically?
    Mr. Kutz. I don't know if they have gone to your committee. 
I believe they probably have. They do work for across the 
government. I believe the answer is yes.
    Mr. Pascrell. I would like to see that.
    Mr. Kutz. And typically they are classified reports.
    Chairman Thompson. We have one that is in the SCIF right 
now that--if you would like to look at--
    Mr. Pascrell. I would.
    Chairman Thompson [continuing]. And I think one is going to 
be released tomorrow.
    Mr. Kutz. That is correct. One is tomorrow.
    Mr. Hawley. And I would look forward to working with the 
committee in a classified session to give a very full 
discussion on it.
    Mr. Pascrell. I want to see where we were and where we are 
and where we hope to be--
    Mr. Hawley. Right.
    Mr. Pascrell [continuing]. So that we know that we have 
confidence in how we are spending our money. And we want to 
know whether people are lying to us when they come to testify. 
We want to know the truth. American people want to know the 
truth. We are only spokesmen. That is basically what we are.
    I don't feel totally comfortable yet, and I am glad that 
you moved--and that is the first time I heard from anybody from 
Homeland Security last month, October the 16th, when you 
testified, that you are heading for a full-fledged 
whistleblowing program which will include screeners. And it 
will be an objective program, not something within. And that 
workers will feel protected if they do come forward and they 
know they won't feel threatened.
    And I think that that is important, and that helps your 
morale problem, if you have any. You are minimizing the morale 
problems, but maybe I am talking to the imposters when I go to 
the airports. I don't know. That isn't the conclusion I would 
come to.
    Thank you.
    Chairman Thompson. Thank you very much.
    I want to thank the witnesses for their valuable testimony 
and the members for their questions.
    I also want to say to Mr. Hawley that we really are looking 
to a successful conclusion of this e-mail situation. It is a 
real concern. And there are some other issues with it that we 
hope through our inquiry you can respond accordingly.
    The members of the committee may have additional questions 
for the witnesses, and we will ask you to respond expeditiously 
in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:53 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
